Report No. IE-2010-002                     February 25, 2010




               Inspection of the Armed Forces

                         Retirement Home
                                    INSPECTOR GENERAL 

                                   DEPARTMENT OF DEFENSE' 

                                      400 ARMY NAVY DRIVE 

                                 ARLINGTON, VIRGINIA 22202-4704 


                                                                     FEB 2 5 2010

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND
                             READINESS
                          CHIEF OPERATING OFFICER, ARMED FORCES RETIREMENT
                            HOME

SUBJECT: Inspection of the Armed Forces Retirement Home: (RepOlt No. IE-2010-002)


       We are providing this report for information and use. We considered management
comments to a draft of this report in preparing this final repOli.


       We requested and received comments from The Under Secretary of Defenses for
Personnel and Readiness and the Chief Operation Officer, Armed Forces Retirement Home.
Management generally concurred with the observations, findings and recommendations
contained in this repOli. For three l'ecommendations in which management was not in full
concurrence, management's actions and intentions were considered adequate to address the spirit
and intent of those recommendations. We consider managements stated course of action to be
responsive to this report and the recommendations provided.


       We appreciate the cOUliesies extended to the staff. Please direct questions to Mr. Phil
VanLandingham at (703) 604-8948 (DSN 664-8948) or Mr. Vincent M. Scott at (703) 604-9140
(DSN 664-9140).




                                                   Deputy Inspector General
                                                   for Policy and Oversight
This page intentionally left blank.
                                                                 Inspection of the Armed Forces Retirement Home
                                                                     February 25, 2010 Report No. IE-2010-002




                 Results in Brief: Inspection of the Armed
                 Forces Retirement Home

What We Did
Public Law (PL) 110-181 “National Defense Authorization Act for Fiscal Year 2008” revised
title 24, United States Code, Chapter 10 (2006) “Armed Forces Retirement Home” to mandate
that the Department of Defense Inspector General (DOD IG) conduct an annual inspection of the
Armed Forces Retirement Home (AFRH), specifying in part:

        “in any year in which a facility of the Retirement Home is not inspected by a
        nationally recognized civilian accrediting organization, the Inspector General of
        the Department of Defense shall perform a comprehensive inspection of all
        aspects of that facility, including independent living, assisted living, medical and
        dental care, pharmacy, financial and contracting records, and any aspect of either
        facility on which the Local Board for the facility or the resident advisory
        committee or council of the facility recommends inspection.” 1

The legislation also specified that a Medical Inspector General designated by the Secretary of
Defense would assist during the conduct of annual inspections. PL 110-181 eliminated the
previous requirement for a triennial alternating military service Inspector General inspection of
the AFRH. Due to current re-construction of the Armed Forces Retirement Home – Gulfport
(AFRH [G]) facility subsequent to Hurricane Katrina, this inspection was limited to the
management and facilities associated with the Armed Forces Retirement Home – Washington,
D.C. (AFRH [W]). See Appendix A for project announcement.

The Office of Under Secretary of Defense for Personnel and Readiness (OUSD [P&R])
designated the Air Force Inspection Agency (AFIA) to provide medical inspection assistance for
this inspection. Subsequently, the DOD IG entered into a memorandum of understanding
(MOU) with AFIA to delineate each agencies role in the conduct of this inspection. See
Appendix B for DOD IG/AFIA MOU.

In preparation for the inspection we initiated contact with the Chairman of the AFRH (W)
Resident Advisory Committee, the Chairperson of the AFRH (W) Local Board of Trustees
(Local Board), Deputy Director of the TRICARE Management Activity, and the military
services to ascertain their concerns or desired focus areas for inclusion within our inspection’s
scope. We received no input from the military services. We discussed the general scope of



1
  Chapter 10, title 24, United States Code (2006) establishes the Armed Forces Retirement Home (AFRH) and
identifies the Armed Forces Retirement Home, Washington, D.C. (AFRH [W]) and Armed Forces Retirement
Home, Gulfport, Mississippi (AFRH [G]) as facilities of the AFRH. In this report, reference to AFRH applies to the
homes overarching management at the Chief Operating Officer Staff level and AFRH (W) or AFRH (G) applies to
specific facilities and/or specific facility level management.

                                                        i
                                                          Inspection of the Armed Forces Retirement Home
                                                              February 25, 2010 Report No. IE-2010-002


inspection with the Chairman of the Resident Advisory Committee and the Deputy Director of
the TRICARE Management Activity. We received specific written input from only the Local
Board. See Appendix C for Local Board inspection areas of interest. Local Board interest items
were addressed within the medical element of this inspection.

Based on discussions with OUSD (P&R), Chairman of the AFRH (W) Resident Advisory
Committee, Deputy Director of the TRICARE Management Activity, written input received
from the Chairperson of the Local Board, scope and results from the most previous triennial
AFRH inspection, conducted by AFIA in 2005, we developed our scope and methodology for
this inspection. We also included special interest areas of hotline and voting program reviews
which were not a part of previous inspections. Our objectives and methodology are discussed in
the following section (pages 1-3) of this report. Tabs A-N contains specific areas of inspection
interest, discussion, findings and recommendations (if applicable).

In advance of the on-site phase of the inspection, we conducted focus groups consisting of
residents and staff members to ascertain their perceived quality of life for the residents, and the
quality of work life for the staff. See Tab N for focus group overview summary.

Upon review of all relevant research data obtained, we conducted an on-site inspection and
review of the AFRH management programs, the AFRH medical programs, and facilities of
AFRH (W) during the week of September 14-18, 2009.

What We Found
In general, we found AFRH to be well managed, and the residents as well as the staff pleased to
be affiliated with ARFH (W). However, we noted several areas where focused management
attention would enhance and improve the AFRH programs, operations, and material condition of
facilities. We also discovered the current statutory language germane to AFRH and the senior
management federal alignment to be vague, confusing, and in some areas seemingly
contradictory – resulting in uncertainty as to applicable governance directives and AFRH
compliance requirements. We further noted that the evolution of 24 U.S.C. Chapter 10 (2006)
legislation has resulted in the duplication of assessment and inspection mandates on multiple
agencies and advisory entities associated with the AFRH. In reviewing compliance with these
inspection and assessment mandates, we concluded that neither the Deputy Director of the
TRICARE Management Activity (in the capacity of AFRH Senior Medical Advisor) nor the
AFRH Local Board were currently providing the level of advice and oversight expected from
their respective roles, as delineated in 24 U.S.C. Chapter 10 (2006), as amended by PL 110-181.
Elaborative discussions, finding and recommendations are contained in Tabs A-N of this report.

Management Comments
We received management comments from OUSD (P&R) and the AFRH in reply to a formal
draft report of this inspection. Management concurred with all recommendations except: A-8,
E-1 and I-3. Although management did not specifically concur with aforementioned three
recommendations, management’s stated actions in review and resolution of the related findings
met the spirit and intent of recommendations offered. Management comments are contained in
Appendix E and F. No further management comments are required.


                                                  ii
                                                        Inspection of the Armed Forces Retirement Home
                                                            February 25, 2010 Report No. IE-2010-002




Recommendations
Table 1. Recommendations
             Management                          Recommendations Requiring Comment
Office of Under Secretary of Defense        A-2, A-3, A-4, A-5, A-6, A-7, A-8, A-9 I-2
(Personnel and Readiness)
Armed Forces Retirement Home                A-1, A-2, B-1, B-2, C-1, C-2, D-1, D-2, E-1, F-1,
                                            G-1, G-2, H-1, H-2, H-3, H-4,
                                            I-1, I-3, I-4, I-5



List of Recommendations:

A-1: The Armed Forces Retirement Home Chief Operating Officer should establish a more
formalized and recurring AFRH facility inspection protocol, with recorded documentation of
observations and corrective actions.

A-2: The Armed Forces Retirement Home and the Office of Under Secretary of Defense
(Personnel and Readiness) should consider the benefits of improving some residents’ perceptions
of management and their morale now negatively affected by the lack of a uniformed military
presence in AFRH (W) management infrastructure (Deputy Director). If not considered prudent
or feasible, the AFRH (W) and OUSD (P&R) should seek relief from 24 U.S.C. § 417 (2006)
Deputy Director requirement for AFRH (W).

A-3: OUSD (P&R) should provide the Local Board of the AFRH (W) with guidance related to
their duties as delineated by 24 U.S.C. § 416 (2006), as amended by PL 100-181, and direct the
Local Board of AFRH (W) to engage the AFRH management in a proactive guidance and
advisory role.

A-4: The Under Secretary of Defense (Personnel and Readiness) should establish a management
protocol to ensure that the Local Board of AFRH (W) proactively participates in an annual
AFRH (W) assessment or causes the annual assessment to be conducted by an independent
assessment body.

A-5: The Under Secretary of Defense (Personnel and Readiness) should ensure that the Deputy
Director of the TRICARE Management Activity carries out the legislated role of AFRH Senior
Medical Advisor. USD (P&R) should direct the Senior Medical Advisor to schedule AFRH (W)
for recurring dedicated inspections of the medical facilities and medical operations to include an
audit of medical records and administration.

A-6: The Under Secretary of Defense (Personnel and Readiness) should determine, clarify, and
define management alignment and appropriate policy and governance oversight authorities for




                                                iii
                                                         Inspection of the Armed Forces Retirement Home
                                                             February 25, 2010 Report No. IE-2010-002


the AFRH. If warranted, OUSD (P&R) should seek legislation to aid in establishing clear
authorities.

A-7: The Under Secretary of Defense (Personnel and Readiness) should promulgate all desired
DOD guidance deemed applicable to AFRH.

A-8: The Under Secretary of Defense (Personnel and Readiness) should ensure coordinated non-
reimbursable DOD legal support for AFRH and require that AFRH obtain its legal advice
through one designated legal office.

A-9: The Under Secretary of Defense (Personnel and Readiness) should review annual and
periodic inspection requirements contained within 24 U.S.C. § 411, 416, 418 and new section
(413a) provided in Public Law 110-181, to determine the most effective and beneficial source
and timing of AFRH oversight inspections. USD (P&R) should also seek modifications to 24
U.S.C. Chapter 10 (2006), as amended by PL 110-181, as necessary to provide the most effective
and efficient inspection oversight.

B-1: The Armed Forces Retirement Home Chief Operating Officer should establish prescribed
rules through formal policy and guidance to determine resident eligibility as required by 24
U.S.C. § 412 (2006).

B-2: The Armed Forces Retirement Home should conduct background checks on approved
residents with reporting dates to ensure eligibility requirements are met as prescribed by 24
U.S.C. § 412 (2006).

C-1: The Armed Forces Retirement Home, Washington, D.C., should comply with the D.C. Fire
Marshal’s recommendations and the Chief of Campus Operations maintenance projections
(November 2009) to replace 10 broken fire hydrants and repair 13 other identified fire hydrants.

C-2: The Armed Forces Retirement Home, Washington, D.C., should replace or repair the
leaking water pipelines per the Chief of Campus Operations stated plan of action
(November 2009).

D-1: The Armed Forces Retirement Home should review and ensure compliance with the
information assurance policies as set forth in the AFRH Information Security Manual.

D-2: The Armed Forces Retirement Home should ensure compliance with established
information security policy at AFRH (W), and contractors’ sites where AFRH servers and
information are stored and hosted

E-1: The Armed Forces Retirement Home, Washington, D.C., should survey all residents,
including LaGarde residents, to determine the demand for weekend off-site activities and trips.
If sufficient demand exists, AFRH (W) should investigate alternatives for increasing the
schedule of weekend off-site activities and the supporting staff or volunteers that are required to
accommodate all residents, regardless of residence category.




                                                 iv
                                                        Inspection of the Armed Forces Retirement Home
                                                            February 25, 2010 Report No. IE-2010-002


F-1: The Armed Forces Retirement Home, Washington, D.C., should ensure recurring and
timely employee performance evaluation and counseling. Emphasize to managers and
supervisors, on an ongoing basis, the importance of regular performance feedback and formal
progress reviews.

G-1: The Armed Forces Retirement Home should, in conjunction with the Bureau of Public
Debt, ensure that quality assurance actions are consistently documented.

G-2: The Armed Forces Retirement Home should, in conjunction with the Bureau of Public
Debt, develop a joint Contracting Officer Technical Representative policy that is consistent with
existing directives.

H-1: The Armed Forces Retirement Home should determine appropriate jurisdiction for
AFRH (W) security operations that involve potential law enforcement type activities and
perform a comprehensive review of the current status of all AFRH (W) standard operating
procedures and issue formal guidance commensurate with authority allowed by public law and
regulation.

H-2: The Armed Forces Retirement Home, Washington, D.C., should conduct a thorough
security assessment of the AFRH (W) campus with the requisite technical and professional
expertise for assessing security needs of federal facilities for non-military use. The assessment
should incorporate as a factor, the legal and statutory limitation applicable to AFRH (W) security
personnel in the performance of their official duties.

H-3: The Armed Forces Retirement Home, Washington, D.C., should engage other federal and
local agencies and local security or policing support to enter into written support agreements.

H-4: The Armed Forces Retirement Home, Washington, D.C., should develop security
performance measures and implement recurring test analysis to validate effectiveness of security
procedures.

I-1: The Armed Forces Retirement Home, Washington, D.C., should assess the effect that the
vacancy of the Chief of Healthcare Services position has had on Medical Executive Committee
documentation and standardization deficiencies, and prioritize the necessary personnel or
organizational resolution to rectify the extended vacancy.

I-2: The Under Secretary of Defense (Personnel and Readiness) should direct the Senior
Medical Advisor (Deputy Director TMA) to determine, in consultation with the Armed Forces
Retirement Home Chief Operating Officer and Medical Director, an appropriate practice for
supplementing Commission on Accreditation of Rehabilitation Facilities (CARF) accreditation
through a focused, ongoing clinical review and oversight element.

I-3: The Armed Forces Retirement Home, Washington, D.C., should establish formal dental
referral and coordination affiliations through Memoranda of Understanding with local
community and DOD facilities.




                                                v
                                                       Inspection of the Armed Forces Retirement Home
                                                           February 25, 2010 Report No. IE-2010-002


I-4: The Armed Forces Retirement Home, Washington, D.C., should ensure that all clinical care
provider group services, assessments, and activities are incorporated into Medical Executive
Committee meetings and minutes.

I-5: The Armed Forces Retirement Home, Washington, D.C., should establish a formal process
for ensuring communication and coordination among activities across the Healthcare and
Administrative services to ensure that required actions on risk management, incident reporting,
and wheelchair movement accessibility are addressed.




                                               vi
                                                                                     Inspection of the Armed Forces Retirement Home
                                                                                         February 25, 2010 Report No. IE-2010-002



Table of Contents
Results in Brief: Inspection of the Armed Forces Retirement Home ....................................... i

   What We Did ............................................................................................................................... i

   What We Found .......................................................................................................................... ii

   Management Comments ............................................................................................................. ii

   Recommendations...................................................................................................................... iii

Introduction....................................................................................................................................1

   Objectives ................................................................................................................................... 1

   Methodology............................................................................................................................... 2

Background ....................................................................................................................................5

Results .............................................................................................................................................7

   Tab A – Senior Management ...................................................................................................... 7

   Tab B – Admissions/Eligibility ................................................................................................ 19

   Tab C – Facilities Engineering and Safety ............................................................................... 22

   Tab D – Information Technology ............................................................................................. 25

   Tab E – Recreation Services (Resident Services)..................................................................... 28

   Tab F – Human Resources Management .................................................................................. 30

   Tab G – Contracting.................................................................................................................. 32

   Tab H – Security ....................................................................................................................... 34

   Tab I – Medical......................................................................................................................... 38

   Tab J – Disposition of Effects................................................................................................... 48

   Tab K – Hotline Activity .......................................................................................................... 49

   Tab L – Voting .......................................................................................................................... 50

   Tab M – Finance ....................................................................................................................... 51

   Tab N – Focus Group and Individual Interview Synopsis........................................................ 55

Appendix A. Inspection Announcement Letter........................................................................59

Appendix B. Department of Defense Inspector General/Air Force Inspection Agency

Memorandum of Understanding................................................................................................61

Appendix C. Local Board Inspection Input .............................................................................65

Appendix D. Resident (Recreation) Services............................................................................67

Appendix E. OUSD (P&R) Management Comments..............................................................73

Appendix F. AFRH Management Comments ..........................................................................77

Appendix G. Acronyms ..............................................................................................................91

Appendix H. Distribution...........................................................................................................93

                        Inspection of the Armed Forces Retirement Home
                            February 25, 2010 Report No. IE-2010-002




This page intentionally left blank.
                                                         Inspection of the Armed Forces Retirement Home
                                                             February 25, 2010 Report No. IE-2010-002




Introduction
Public Law (PL) 110-181, “National Defense Authorization Act for FY 2008,” section 1422,
amends several sections of the Armed Forces Retirement Home Act of 1991, title 24, United
States Code, chapter 10 (24 U.S.C. [2006]), “Armed Forces Retirement Home.” Specific
modifications to section 418, title 24 United States Code (24 U.S.C § 418 [2006]) legislates that
the Inspector General of the Department of Defense (DOD IG) will inspect the Armed Forces
Retirement Home (AFRH), and states in part:

       “in any year in which a facility of the Retirement Home is not inspected by a
       nationally recognized civilian accrediting organization, the Inspector General of
       the Department of Defense shall perform a comprehensive inspection of all
       aspects of that facility, including independent living, assisted living, medical and
       dental care, pharmacy, financial and contracting records, and any aspect of either
       facility on which the Local Board for the facility or the resident advisory
       committee or council of the facility recommends inspection.”

The amendment further directs that the Secretary of Defense will designate a medical inspector
general of a military department to assist the DOD Inspector General during the inspection. For
this inspection, the Air Force Inspection Agency was designated to provide medical inspection
expertise and assistance.


Objectives
The Office of the Assistant Inspector General for Inspections and Evaluations announced the
project on May 1, 2009 (see Appendix A). We reviewed 24 U.S.C. Chapter 10 (2006), as
amended by PL 110-181, inspection parameters and previous inspection areas as established for
the AFIA 2005 inspection of the Armed Forces Retirement Home. In February 2009, we met
with a representative of OUSD (P&R) to discuss the intended scope of inspection areas to be
included in the DOD IG inspection. The following general inspection areas were agreed upon:

   •      Senior Management
   •      Admissions/Eligibility
   •      Facilities Engineering and Safety
   •      Information Security
   •      Recreation Services (Resident Services)
   •      Human Resources Management
   •      Contracting
   •      Security
   •      Medical
           o Physical Therapy
           o Dental Care
           o Pharmacy Operations


                                                 1

                                                         Inspection of the Armed Forces Retirement Home
                                                             February 25, 2010 Report No. IE-2010-002


   •      Disposition of Effects
   •      Hotline Activity
   •      Voting
   •      Finance

Methodology

We began the research phase of this project on January 5, 2009. The purpose of our research
assessment was to gather information to assist in developing the depth and scope of our
inspection objectives. We met with representatives of the OUSD (P&R), TRICARE
Management Activity, AFRH, AFRH (W), and the AFRH (W) Resident Advisory Council. In
addition, we discussed inspection intent and interest areas via correspondence with the
Chairperson of the Local Board of Trustees for the Armed Forces Retirement Home (W).

The team developed an inspection criteria guide list to address compliance with relative Federal
law and regulations for each inspection focus area.

We formally announced the inspection on May 1, 2009. Seventeen Focus Group/Sensing
Sessions with residents and staff were conducted from August 3-11, 2009, to determine concerns
and/or areas of inspection focus that should be added to the Inspection Design Plan. Resident
and staff satisfaction with AFRH management and the services it provided were also assessed.
Additional inspection interest areas generated from the Focus Group/Sensing Sessions were
shared with AFRH leadership prior to commencement of the on-site inspection. The areas were
later validated during the on-site inspection.

The on-site inspection of AFRH (W) was conducted from September 14-18, 2009. In our
review, we interviewed key AFRH and AFRH (W) management and staff points of contact for
each inspection element delineated in the inspection scope and objectives. We focused on the
overall administration and management of AFRH and AFRH (W), in addition to reviewing
medical, dental, pharmacy operations and resident satisfaction with services provided by AFRH
(W). We inspected the records of AFRH and AFRH (W) to ensure compliance with applicable
laws and regulations pertaining to each area delineated in the inspection scope and objectives.
Throughout the conduct of the Inspection we observed resident interaction with staff, staff
conduct, and management interaction with staff and residents to assist in our analysis of the
overall quality of work and residential life.

We also reviewed and verified AFRH and AFRH (W) compliance with outstanding actions
related to recent government reviews, including Defense and AFRH Hotline complaints, the
Triennial AFRH Inspection conducted by the Air Force Inspection Agency (July 2005), and the
recent CARF Quality Improvement Plan (2008). We also reviewed staff and resident satisfaction
surveys conducted by the AFRH.

Subsequent to collation of initial research materials, on-site inspection data and additional post
on-site inspections research information, an initial discussion report was prepared. Primary
stakeholders were offered the opportunity to comment on the accuracy of our discussions,



                                                 2

                                                       Inspection of the Armed Forces Retirement Home
                                                           February 25, 2010 Report No. IE-2010-002


observations and findings. A discussion conference was held on January 14, 2010. Comments
and recommendations provided by all stakeholders were considered within the formal draft
report. Management was offered a second opportunity to comment on the formal draft of this
inspection report. Management comments were considered in this final report.

Our inspection was conducted in accordance with the standards established by the President’s
Council on Integrity and Efficiency (now the Council of the Inspectors General on Integrity and
Efficiency) published in the Quality Standards for Inspections, January 2005.




                                               3

                        Inspection of the Armed Forces Retirement Home
                            February 25, 2010 Report No. IE-2010-002




This page intentionally left blank.
                                                                   Inspection of the Armed Forces Retirement Home
                                                                       February 25, 2010 Report No. IE-2010-002




Background
The Armed Forces Retirement Home (AFRH)
The Soldiers’ Home was established in
1851 for former enlisted soldiers, (airmen
were added when the Air Force became a
separate service), at its present location in
Washington, D.C. A Navy retirement
facility also opened in Philadelphia,
Pennsylvania in 1834 to serve former
enlisted sailors. The U.S. Naval
Retirement Home moved to Gulfport,
Mississippi, in the late 1960s.

In 1991, Congress incorporated the U.S.
Naval Home in Gulfport, Mississippi, and
the U.S. Soldiers’ and Airmen’s Home              Armed Force Retirement Home Aerial View
into an independent organization (the                    (Source AFRH Photo Archive)
Armed Forces Retirement Home-AFRH).
By 2001, Congress renamed the U.S. Naval Home and the U.S. Soldiers' and Airmen's Home to
the Armed Forces Retirement Home – Gulfport and the Armed Forces Retirement Home –
Washington, D.C., respectively. Title 24, United States Code, Section 411 (24 U.S.C § 411
[2006]) establishes AFRH as an independent establishment under the Executive Branch, with
two facilities – AFRH (W) and AFRH (G) – maintained as separate facilities of the Retirement
Home. On August 29, 2005, Hurricane Katrina severely damaged the AFRH (G) home. Many
of the residents were evacuated to AFRH (W) and currently remain there awaiting relocation to
the new AFRH (G) facilities which are currently under construction. 2 Today, AFRH (W) serves
approximately 1,000 residents.

 In 2008, PL 110-181 revised 24 U.S.C. § 418 (2006) requiring the Department of Defense
Inspector General (DOD IG) to conduct annual inspections of AFRH in any year in which the
Retirement Home was not inspected by a nationally recognized civilian accrediting agency. In
2008, AFRH (W) was inspected and received accreditation from the Commission of
Accreditation of Rehabilitation Facilities (CARF). The inspection summary contained in this
report was initiated to fulfill 24 U.S.C. § 418 (2006), as amended by PL 110-181, statutory DOD
IG AFRH inspection requirements for 2009.




2
    AFRH (G) reconstruction is scheduled to be completed in late 2010.


                                                          5

                        Inspection of the Armed Forces Retirement Home
                            February 25, 2010 Report No. IE-2010-002




This page intentionally left blank.
                                                               Inspection of the Armed Forces Retirement Home
                                                                   February 25, 2010 Report No. IE-2010-002




Results
Tab A – Senior Management
Overall Assessment

The Armed Forces Retirement Home (AFRH) Senior
Management inspection addressed program
management elements established by 24 U.S.C. Chapter
10 (2006), as amended by PL 110-181. The assessment
of the Senior Management included a review of the
qualifications, duties, and responsibilities of the AFRH
Chief Operating Officer, AFRH (W) Director, Deputy
Director, and Associate Director. 3 Also, reviewed were
the roles, functions, and effectiveness of the Local
Board of Trustees (Local Board), and the Deputy
Director of the TRICARE Management Activity in the
role as the AFRH Senior Medical Advisor (SMA).
During research in preparation for the conduct of this
inspection, we encountered significant challenges in
determining the proper governing authority for
programs and operations of the AFRH. We further
noted that the evolution of 24 U.S.C. Chapter 10 (2006)
legislation resulted in the duplication of assessment and
inspection mandates on multiple agencies and advisory                      Sherman Building (AFRH)
entities associated with the AFRH.                                        (Source AFRH Photo Archive)

Incumbents of Senior Management positions at AFRH and AFRH (W) were qualified for their
respective positions. The position of Deputy Director of AFRH (W) was not filled.

The Local Board of Trustees (Local Board) is established under section 416, title 24 United
States Code (24 U.S.C. § 416 [2006]). Title 24 U.S.C. § 416 (2006) establishes the Local Board
as an advisory body; however the legislation also establishes the requirement for the Local Board
to provide the AFRH Chief Operating Officer and AFRH (W) Director such direction and
guidance as the Local Board considers appropriate. Title 24, U.S.C. § 416 (2006), as amended
by PL110-181, also requires the Local Board to provide the USD (P&R) with an annual
assessment of AFRH to include all aspects of the facility, including quality of care. Although the
Local Board is conducting required semiannual meetings, our inspection found negligible


3
  Section 411, title 24, United States Code (24 U.S.C § 411[2006]) establishes the AFRH as an independent
establishment in the executive branch of federal government, further defining the AFRH(W) and the AFRH (G) as
separate facilities/establishments of the AFRH. Due to the destruction AFRH (G) by Hurricane Katrina in 2005,
this inspection only focused on the AFRH and the AFRH (W) facility.


                                                      7

                                                                Inspection of the Armed Forces Retirement Home
                                                                    February 25, 2010 Report No. IE-2010-002


indication of proactive Local Board activities to provide the ARFH with direction or guidance or
to provide OUSD (P&R) with a vigorous annual assessment of the home.

The SMA is required to consult with and provide advice to the Local Board, periodically visit
and inspect the medical facilities and operations of the retirement home and ensure compliance
by the facilities of the retirement home with accreditation standards, applicable health care
standards of the Veterans Administration and ensure timely availability of acute medical, mental
and dental care at other facilities for that care not readily available at the retirement facility. At
the time of the onsite phase of this inspection, the SMA had not been formally designated by the
Secretary of Defense as required by 24 U.S.C. Chapter 10 (2006), as amended by PL110-181.
We found no indication of proactive engagement by the current Deputy Director of TRICARE
Management Activity to fulfill the role of AFRH SMA.

Throughout the conduct of this inspection, the inspection team was faced with confusing and
seemingly contradictory indications of AFRH and AFRH management alignment within the
Federal Government. These ambiguities resulted in significant challenges in determining which
governance directives, policies and standard operating procedures from which to develop
inspection criteria. Title 24, U.S.C. § 411 (2006) establishes AFRH as an independent
government agency, yet section 415, title 24, United States Code (24 U.S.C. § 415 [2006])
legislates that the AFRH Chief Operating Officer is appointed by the Secretary of Defense. The
AFRH solicited legal guidance from a DOD component legal office to ascertain applicability of
DOD directives to the AFRH. The opinion received indicated that AFRH (as an independent
agency) is not subject to DOD Instructions. Our review of that opinion indicated that such
interpretation may be overbroad in that DoD policies specifically promulgated for AFRH under
the auspices of 24 U.S.C. Chapter 10 (2006) would be binding on the AFRH. 4 The confusion in
statutory alignment was also evident in the fact that AFRH had requested other legal opinions
related to determining oversight authority regarding security and policing authority.

Chief Operating Officer

Section 415, title 24, United States Code (24 U.S.C. § 415 [2006]) states in part that a Chief
Operating Officer for AFRH shall be appointed by the Secretary of Defense. The Chief
Operating Officer shall be a continuing care retirement community professional, have
appropriate leadership and management skills, have expertise in the management of retirement
homes and the provision of long-term medical care for older persons. Further, the Chief
Operating Officer shall issue and ensure compliance with rules and regulations for the operation
of the retirement home, periodically visit and inspect the facilities of the retirement home,
periodically audit the accounts of the retirement home, and establish any advisory bodies
considered to be necessary. Basic pay and bonuses of the Chief Operating Officer shall not
exceed basic pay for Level I of the Executive Schedule.




4
  We identified only one DOD Directive that is promulgated specifically for the AFRH and that Directive had been
superseded by legislative mandates of PL 110-181. DOD Instruction 4161.03 “Triennial Inspection of the Armed
Forces Retirement Home” dated June 26, 2006.

                                                       8

                                                        Inspection of the Armed Forces Retirement Home
                                                            February 25, 2010 Report No. IE-2010-002


The current AFRH Chief Operating Officer was appointed in September 2002. A review of the
incumbent’s resume indicates he is fully qualified for the position as stipulated in
24 U.S.C § 415 (2006). Further review of the incumbent’s personnel action records also shows
that his compensation is within established limits.

The Chief Operating Officer has ensured that AFRH has established account audit protocol. As
examples, AFRH has an independent accounting firm to conduct annual financial statement
audits and has Memorandums of Agreements with other Agencies to provide audit of Welfare
and Recreation funds.

The Chief Operating Officer stated that he had convened advisory bodies in the past; an example
was the utilization of the U.S. General Services Administration to provide advice and counsel on
real estate development matters and the use of Resident Committees to assist with Gulfport
transition issues.

AFRH has issued appropriate rules and regulations in the form of Policy Statements, Agency
Notices, and Agency Directives. The index of ARFH Agency Policy Statements and Directives
dated September 14, 2009, reflected 54 active guidance documents addressing a broad spectrum
of agency functions and activities. During an interview with the Chief Operating Officer, he
stated that his preferred method of conducting inspections of the facilities was via direct
interface, interpreted by inspectors as “management by walking around.” The Chief Operating
Officer indicated that when he noted a discrepancy or had a question, he immediately contacted
the appropriate point of contact and ensured that the discrepancy or question was resolved to his
satisfaction. The Chief Operating Officer indicated that due to the hands on nature of his
inspection protocol, he did not have written documentation of specific inspection events.

Observation: The Chief Operating Officer office is located within the AFRH (W) facility.
Although direct observation of AFRH (W) may provide required oversight and provide a vehicle
to identify and correct deficiencies, a more formal and systematic inspection, with
documentation of conduct is preferable. This observation will be particularly significant when
AFRH (G) is reestablished and the Chief Operating Officer’s sphere of responsibility increases
considerably.

Finding: Chief Operating Officer was unable to provide documentation of facilities inspections
conducted by his office.

Recommendation:

A-1: AFRH Chief Operating Officer should establish a more formalized and recurring AFRH
facility inspection protocol, along with recorded documentation of observations and corrective
actions.

AFRH (W) Director, Deputy Director, and Associate Director

Section 417, title 24, United States Code (24 U.S.C. § 417 [2006]) states in part that the
Secretary of Defense shall appoint a Director, a Deputy Director, and Associate Director for each

                                                9

                                                        Inspection of the Armed Forces Retirement Home
                                                            February 25, 2010 Report No. IE-2010-002


facility of the home. The Director shall be a civilian with experience in continuing care 

retirement community or a member of the Armed Forces on active duty serving in a grade below

Brigadier General or Rear Admiral (Lower Half). The Director of the Facility must have a 

certification as a retirement facilities director or be pursuing a course of study to receive

certification as a retirement facilities director. The Deputy Director of the facility shall be a 

civilian with experience in continuing care retirement community professional or a member of

the Armed Forces on active duty serving in a grade below Colonel or Captain (U.S. Navy). The 

Associate Director of the facility shall be a member of the Armed Forces serving on active duty

in the grade of Sergeant Major or Master Chief Petty Officer or Chief Master Sergeant or a 

former service member retired in that grade and have appropriate leadership skills.


The current Director of AFRH (W) was appointed to that position in March 2008. A review of

the incumbents resume indicates he is qualified for the position in accordance with

24 U.S.C § 417 (2006) requirements. 


The current Associate Director of AFRH (W) was appointed in September 2004. The Associate

Director fills the role of Ombudsman for AFRH (W). The incumbent is a retired Sergeant Major. 

The incumbent is qualified for the position of Associate Director in accordance with

24 U.S.C § 417 (2006) requirements. 


The position of Deputy Director of AFRH (W) is not currently filled. The AFRH Chief

Operating Officer stated that he did not believe that there was a management need to fill the

position. He stated that management requirements/demands of AFRH (W) did not necessitate 

another layer of management and that filling the position would add an unnecessary layer of

bureaucracy which may actually inhibit efficient and effective management.


Observation: We agree with the AFRH Chief Operating Officer’s analysis of management need

as related to the AFRH (W) Deputy Director position. Since the AFRH agency level

management is co-located with AFRH (W) management, we concur that there is adequate 

management infrastructure in place to address all AFRH (W) management issues. However, 

filling the Deputy Director position with a uniformed military officer to serve in a capacity of

military advisor may off-set some residents’ stated concerns of a diminished military

management presence. Furthermore, resident concerns reflect a perceived loss of esprit de corps

that many residents have expressed an interest in recapturing (see Tab N-Focus Group and 

Individual Interviews). We believe that filling the Director and Associate Director positions with

civilian professionals (with military background) is prudent and has provided valued AFRH (W)

operational and fiscal management expertise. However, the complete absence of a uniformed 

military presence within the leadership infrastructure appears to have adverse consequences in

how many residents view the management of the home in general. The opportunity to establish a

visible military management affiliation within AFRH (W) could potentially resolve what many

residents perceive as a decline in emphasis on military traditions.


Finding: The statutory position of Deputy Director for AFRH (W) is vacant.





                                                10 

                                                          Inspection of the Armed Forces Retirement Home
                                                              February 25, 2010 Report No. IE-2010-002


Recommendation:

A-2: AFRH and OUSD (P&R) should consider the benefits of improving some residents’
morale and perceptions of management now negatively affected by the lack of a uniformed
military presence in AFRH (W) management infrastructure (Deputy Director). If not considered
prudent or feasible, AFRH (W) and OUSD (P&R) should seek legislative relief from the
24 U.S.C. § 417 (2006) Deputy Director requirement for AFRH (W).

Local Board

The Local Board for AFRH (W) is established in accordance with 24 U.S.C. § 416 (2006)
requirements. The eleven statutory Local Board positions are generally filled as required and
incumbents have received appointment letters from the Secretary of Defense via OUSD P&R.
Additional Local Board members have also been appointed and received appointment letters. A
Chairman of the Local Board is in place; however, the incumbent received only a Local Board
member appointment letter from OUSD (P&R), not specifically providing designation as
Chairman. The current Local Board Chairperson stated that she assumed the role of Local
Board Chairperson based as the ranking military individual assigned to the Local Board.

The 24 U.S.C. § 416 (2006) specified term of office for Local Board members is five years, with
exceptions for active duty military members of the Local Board and provides guidance for
emergent vacancies on the Local Board. We noted that appointment letters for Local Board
members did not reference the five year term of office or an expiration date for term office.

Title 24, U.S.C § 416 (2006) stipulates that the Local Board shall serve in an advisory capacity to
the Director of the facility and the Chief Operating Officer. Title 24 U.S.C § 416 (2006), as
amended by PL110-181, further directs that the Local Board shall provide to the Chief Operating
Officer and the Director of the facility such guidance and recommendations on the
administration of the facility as the Local Board considers appropriate and not less than annually,
the Local Board for a facility shall provide to the Under Secretary of Defense for Personnel and
Readiness an assessment of all aspects of the facility, including the quality of care at the facility.

The Local Board is conducting semi-annual meetings; the most recent Local Board meetings
were held in April 2009 and November 2008. During these meetings the Local Board received
information briefings on the status of projects and proposals from AFRH leadership. Although
minutes of Local Board meetings reflect some dialogue in the form questions from Local Board
members and indicated Local Board concurrence with some issues, our interviews with several
Local Board members found little indication of proactive engagement of the Local Board, as a
whole, in strategic planning or overall management associated with AFRH (W).

The current Local Board Chairperson was appointed to the Local Board in April 2008. The
Local Board Chairperson stated that upon assignment she advised in the development of more
comprehensive and definitive documentation of Local Board meeting. The Local Board
Chairperson also stated that based on her advice the AFRH (W) requested and participated in
mock Commission on Accreditation of Rehabilitation Facilities (CARF) accreditation reviews,
prior to formal evaluation which resulted in CARF certification in 2008. The incumbent Local

                                                 11 

                                                              Inspection of the Armed Forces Retirement Home
                                                                  February 25, 2010 Report No. IE-2010-002


Board Chairperson also participated in a February 2009 review of patient discharge planning and
continuation of care at the AFRH subsequent to discharge of residents/patients from Walter Reed
Army Hospital. AFRH management stated that access to her as the Local Board Chairperson
greatly facilitated the conduct of that review.

We interviewed seven additional members of the Local Board to determine their understanding
of Local Board roles and responsibilities and to ascertain the Local Boards level of interface with
AFRH and AFRH (W) management. All of the Local Board members interviewed were filling
24 U.S.C. § 416 (2006) statutory positions on the Local Board membership. Generally, all
interviewees stated that their only significant interface with the ARFH (W) as a Local Board
member was as an attendee at the semi-annual Local Board meetings hosted by AFRH (W).
Interviewees generally agreed that Local Board meetings were informational meetings in which
members of the AFRH management team provided status presentations on management issues or
strategic plans. Interviewees generally stated that Local Board members were free to ask
questions and make comments and in some briefings were asked to provide a concurrence on a
particular issue, which can be found recorded in the minutes of Local Meetings we reviewed
(April 2009 and November 2008). None of the interviewees recalled an occasion in which the
Local Board offered proactive advice on issues of concern to the Local Board, nor did
interviewees recall any time the Local Board did not concur with AFRH managements plans and
projects. Local Board members interviewed all spoke favorably of the AFRH Chief Operating
Officer and all opined that he had an excellent command of AFRH issues, projects, and plans.
Local Board interviewees all indicated that there was negligible Local Board member interface,
contact or discussions of any topic between board meetings or in preparation for Local Board
meetings. Interviewees also indicated there was negligible contact between themselves and
AFRH management between Local Board meetings, with the exception of receipt of AFRH
event announcement invitations. Only two of the Local Board members interviewed stated they
had visited AFRH (W) in any capacity, other than attendance at the Local Board meeting.
AFRH executive leadership is viewed by the majority of Local Board members interviewed as
the ultimate authority for all issues associated with the AFRH. As such, the Local Board has
assumed a passive advisory role. If asked for guidance or advice by AFRH leadership, the Local
Board would provide such. Otherwise, the Local Board limits advisory interface to asking
questions of AFRH leadership during meeting briefs and providing a concurrence with AFRH
goals and objectives. Although we noted no significant management issues with AFRH goals
and objectives, we do not believe that the Local Board is fulfilling a vigorous advisory role.
During an interview with the Chief Operating Officer, he stated that the level of interface from
the Local Board was “about right” and that any additional interface may result in the Local
Board becoming more of a governing body than an advisory body.

Title 24, U.S.C. § 416 (2006), as amended by PL 100-181, requires the Local Board to provide an
annual assessment of the facility to OUSD (P&R). At the time of the on-site inspection, we were
presented with a draft annual assessment that was reportedly under review by the Local Board
Chairman for signature. 5 The draft report delineated the names of 10 Local Board members
being associated with the assessment. However, during our interviews with Local Board


5
 During and interview with the Chairman of the Local Board on October 29, 2009 we were advised that the AFRH
annual assessment had been signed and was being forwarded to OUSD (P&R).

                                                     12 

                                                        Inspection of the Armed Forces Retirement Home
                                                            February 25, 2010 Report No. IE-2010-002


members, five of whose names were associated with the draft assessment report, all stated they
did not participate in an AFRH (W) assessment and several interviewees indicated they did not
know of the requirement for the Local Board to provide an annual assessment. We determined
that the draft assessment provided was in essence an AFRH self assessment, which was provided
to the Local Board Chairperson for comment or questions and subsequent signature. The
assessment was not conducted by or a product of proactive Local Board activity.

Observation: The Local Board is generally unfamiliar with the requirements of
24 U.S.C. § 416 (2006), as amended by PL 100-181 and is passive in providing guidance and
advice to the Director of the facility and Chief Operating Officer. If asked for advice, the Local
Board would accommodate. However, AFRH management does not specifically ask for advice
and little guidance and advice is offered by the Local Board. Although we did not find any
significant concerns with AFRH management practices and philosophy, the Local Board was not
found to be a significant factor in influencing AFRH management decisions. Although the
Chairman of the Local Board is providing an assessment of AFRH to OUSD (P&R) as required
by 24 U.S.C. § 416 (2006), as amended by PL 110-181, the Local Board did not conduct the
assessment of AFRH (W) operations and quality of care provided at the facility.

Finding: The Local Board is not proactively engaged with AFRH (W) oversight and
management and did not actively participate in the 2009 Annual Assessment of AFRH (W).

Recommendations:

A-3: OUSD (P&R) should provide the Local Board of the AFRH (W) with guidance related to
their duties as delineated by 24 U.S.C. § 416 (2006), as amended by PL 100-181 and direct the
Local Board of AFRH (W) to engage the AFRH management in a proactive guidance and
advisory role.

A-4: OUSD (P&R) should establish management protocol to ensure the Local Board of
AFRH (W) proactively participates in an annual AFRH (W) assessment or causes the annual
assessment to be conducted by an independent assessment body.

Senior Medical Advisor

PL 110-181 revised 24 U.S.C § 413 (2006) to include establishment of an AFRH Senior Medical
Advisor (SMA) position, legislating that the Secretary of Defense shall designate the Deputy
Director of the TRICARE Management Activity as the AFRH SMA. The responsibilities of the
SMA as delineated in the legislation include providing advice to the Under Secretary of Defense
for Personnel and Readiness and the Chief Operating Officer regarding the direction and
oversight of the provisions of medical, preventive mental health, and dental care at each facility
of the AFRH. The SMA shall also provide advice to the Local Board regarding all medical and
medical administrative matters of the facility. A synopsis of delineated duties includes:

(1) Assure the timely availability to AFRH residents, at locations other than the Retirement
Home, of such acute medical, mental health, and dental care as such resident may require that is
not available at the applicable facility of the Retirement Home.

                                                13 

                                                              Inspection of the Armed Forces Retirement Home
                                                                  February 25, 2010 Report No. IE-2010-002




(2) Ensure compliance by the facilities of AFRH with accreditation standards, applicable health
care standards of the Veterans Affairs, or any other applicable health care standards and
requirements (including requirements identified in applicable reports of the Inspector General of
the Department of Defense).

(3) Periodically visit and inspect the medical facilities and medical operations of each facility of
the AFRH.

(4) Periodically examine and audit the medical records and administration of the AFRH.

(5) Consult with the Local Board for each Facility of AFRH not less frequently than once each
year.

In preparation for this inspection, we conducted background and inspection intent briefings with
the current Deputy Director of the TRICARE Management Activity in July 2009 and the
previous Deputy Director of the TRICARE Management Activity in April 2009. 6 When briefing
the previous Deputy Director of the TRICARE Management Activity, we were given a sense that
he was aware of 24 U.S.C. § 413 (2006), as amended by PL 110-181, AFRH SMA requirements,
and that he was engaged with AFRH in attempting to fulfill those requirements. In 2008 the
Deputy Director of the TRICARE Management Activity had visited the AFRH on several
occasions and has participated in AFRH Performance Improvement Committee discussions. In
February 2009, the Deputy Director of TRICARE conducted a formal AFRH site review
pursuant to quality of care complaints voiced via Walter Reed Army Hospital. In July 2009,
when we briefed the current Deputy Director of the TRICARE Management Activity, she
indicated she was not fully aware of the requirements and her role as SMA for the AFRH, noting
that she had just recently been assigned to Deputy Director position (May 2009). We provided
her with references to become familiar with the SMA role.

At the time of the on-site AFRH inspection, the current Deputy Director of the TRICARE
Management Activity had not fully engaged in the role as SMA. Contact had not been made
with AFRH or the Local Board in the intervening months between our intent brief and the start
of the inspection. The SMA did attend the in-brief for the inspection conducted on September
14, 2009. We also noted that the incumbent Deputy Director of the TRICARE Management
Activity had not been formally designated as the SMA by the Secretary of Defense
(via the OUSD P&R) as required by 24 U.S.C. § 413 (2008), as amended by PL 110-181. 7

Observation: A proactive SMA could provide invaluable medical program advice and guidance
to AFRH leadership and OUSD (P&R). The medical inspection area of this report contains



6
 The military officer assigned as Deputy Director of the TRICARE Management Activity changed due to normal
military personnel rotation in May 2009.
7
 The Deputy Director of the TRICARE Management Activity was formally designated by OUSD (P&R) as the
SMA for the AFRH on October 5, 2009.


                                                     14 

                                                                Inspection of the Armed Forces Retirement Home
                                                                    February 25, 2010 Report No. IE-2010-002


observations that should be addressed by the SMA and details medical care concerns that may
have been obviated by proactive SMA oversight and assessment

Finding: The Deputy Director of the TRICARE Management Activity was not formally
designated as the SMA for AFRH and had not undertaken the statutory requirements associated
with that position. 8

Recommendation:

A-5: OUSD (P&R) should ensure that the Deputy Director of the TRICARE Management
Activity carries out the legislated role of AFRH SMA. OUSD (P&R) direct the SMA to
schedule AFRH (W) for recurring dedicated inspections of the medical facilities and medical
operations to include an audit of medical records and administration.

AFRH Statutory Alignment

Throughout the course of research and conduct of this inspection, the inspection team was
challenged to determine the appropriate overarching regulation, instruction, code, or authority to
which the Armed Forces Retirement Home was subject in the conduct of AFRH operations and
programs. Although the Chief Operating Officer is appointed by the Secretary of Defense and
24 U.S.C. § 415 (2006) stipulates that the Chief Operating Officer will follow the direction of the
Secretary of Defense, 24 U.S.C. § 411 (2006) has also established AFRH as an independent
agency under the executive branch of government. Early into our inspection team research, we
were presented with an AFRH solicited legal opinion from a DOD component legal office
indicating that as an independent agency, AFRH was not subject to guidance provided in DOD
instructions. The opinion was originally premised upon a question of requirement for AFRH to
comply with DOD procurement regulations; however, the opinion provided offered that the
AFRH was not subject to any DOD regulation based on the AFRH status as an independent
executive agency. OUSD (P&R) confirmed via electronic mail correspondence that they
understood that AFRH is not compelled to comply with DOD regulations. Our review partially
concurred with this specific opinion, with the exception that the guidance initially provided was
overbroad. Based on additional counsel provided to the inspection team, we believe that
guidance provided specifically to AFRH under the authority of DOD under 24 U.S.C. Chapter 10
(2006) would be binding on AFRH and that that OUSD (P&R) is the DOD designate for AFRH
oversight under title 24 authority. However, we identified only one DOD Instruction specific to
AFRH from OUSD (P&R) and that instruction has been rendered obsolete by PL 110-181
legislation. 9 Other DOD policy instructions that may have been viewed as overarching policy or
program guidance for AFRH were directed toward DOD activities under title 10 United States
Code authority. Therefore, the majority of this inspection was premised upon compliance with
overarching federal guidance applicable to all Federal Agencies and Activities, e.g., Office of



8
 On October 22, 2009 the Deputy Director of TRICARE advised the DOD IG that she had began a dialog with the
AFRH leadership and had assigned a member of her staff as liaison to the AFRH.
9
    DOD Instruction 4161.03 “Triennial Inspection of the Armed Forces Retirement Home” dated June 26, 2006

                                                       15 

                                                         Inspection of the Armed Forces Retirement Home
                                                             February 25, 2010 Report No. IE-2010-002


Personnel Management Circulars, National Institute of Science and Technology, or specific 24
U.S.C. Chapter 10 (2006) requirements for the ARFH.

During the course of the on-site inspection we were made aware of other AFRH solicited legal
opinions, regarding questions of security force jurisdiction. Two opinions provided to AFRH
indicate that AFRH is considered a place within the District of Columbia (D.C.) and therefore
subject to D.C. jurisdiction for police service, concluding that AFRH had no authority to
establish a security force with other than private patrol (citizens authority). Those opinions,
although focused on a question of security force jurisdiction, resulted in contemplation of farther
reaching consequences, such as AFRH being under D.C. jurisdiction in other areas as: fire code,
safety code, medical licensing, long term care licensing.

Observation: AFRH has posed several questions regarding governance authorities, soliciting
several legal opinions to gain clarity. The legal opinions rendered appeared to be overbroad in
application or limited in scope to a specific program management area, which creates uncertainty
of the governance authority for other AFRH program management areas. The source of specific
legal advice for the AFRH leadership and program governance is not clearly defined or linked in
existing title 24 legislation or regulation. Therefore, the appropriate source for AFRH guidance
is not clearly understood, resulting in uncertainty for both OUSD (P&R) and AFRH as to
applicable governance authority for the AFRH.

Although 24 U.S.C. § 411(f) (2006) provides that DOD may provide non-reimbursable legal
advice to the AFRH, the AFRH has solicited recent legal opinions from the Staff Judge Advocate
(SJA) of the U.S. Air Force, 11th Wing. The use of DOD legal counsel, or specifically OUSD
(P&R) designated counsel would provide a closer link to the OUSD (P&R) and serve to provide
greater liaison between OUSD (P&R) and AFRH when questions of governance authority arise.

Finding:

Ambiguity exists in AFRH agency/management alignment and resulting operational and
regulatory authority and governance for AFRH programs and operations.

Recommendation:

A-6: OUSD (P&R) should determine, clarify, and define management alignment and
appropriate policy and governance oversight authorities for the AFRH. If warranted, OUSD
(P&R) should seek legislation to aid in establishing clear authorities.

A-7: OUSD (P&R) should promulgate desired DOD guidance deemed applicable to AFRH.

A-8: OUSD (P&R) should ensure coordinated non-reimbursable DOD legal support for AFRH
and require that AFRH obtain its legal advice through one designated legal office.




                                                16 

                                                                 Inspection of the Armed Forces Retirement Home
                                                                     February 25, 2010 Report No. IE-2010-002


Statutory Inspection/Assessment Redundancy

Title 24, U.S.C. Chapter 10 (2006) provides legislative guidance in the staffing, operation, and
oversight of the AFRH. Public Law 110-181 revised 24 U.S.C. Chapter 10 (2006) in several
areas, most significantly in four sections, all of which extended or added inspection requirements
for the AFRH. Below are key provisions of applicable elements of 24 U.S.C. (2006), as
amended by PL 110-181, germane to oversight/inspection:

Section 411: “Establishment of the Armed Forces Retirement Home” Mandated that the Chief
Operating Officer of AFRH secure and maintain accreditation by a nationally recognized civilian
accrediting organization for each aspect of the facility of the retirement home including medical
and dental care, pharmacy, independent living and nursing care. 10

Section 416: “Local Board of Trustees” Added requirement for the Local Board to provide
OUSD (P&R) with an annual assessment of all aspects of the facility, including quality of
medical care.

Section 418: Replaced Triennial Inspection by a military service Inspector General with an
annual inspection by the DOD Inspector General in any year in which a facility of AFRH is not
inspected by a nationally recognized civilian accrediting organization. DOD Inspector General is
tasked to conduct a comprehensive inspection of all aspects of the facility, including independent
living, assisted living, medical and dental care, pharmacy financial and contracting records, and
any other aspect of either facility on which Local Board for the facility or the Resident Advisory
Council of the facility recommends inspection.

New Section 413(a) “Improved healthcare oversight of Retirement Home” Designated Deputy
Director of TRICARE as the AFRH Senior Medical Advisor, further mandating that the SMA
periodically visit and inspect the medical facilities and medical operations of the retirement
home.

Observation: In summary, 24 U.S.C. Chapter 10 (2006) reflects the requirement for four
recurring inspections or assessments of the AFRH. Two annual inspections or assessments of
AFRH facilities and medical operations are mandated, one contingent inspection by DOD IG,
and an assessment by the Local Board. An additional periodic inspection of AFRH facilities and
medical operations must be conducted by the AFRH SMA and a recurring civilian accreditation
review is mandated. 11

Finding: The oversight inspections and assessments of AFRH mandated by 24 U.S.C. (2006), as
amended by PL 110-181, appear to be redundant and excessive.



10
  Previously 24 USC § 411 (2008) stated that the Chief Operating Officer shall endeavor to secure and maintain
civilian accreditation.
11
   CARF is the current civilian accrediting organization for the AFRH home and provides accreditation assessment
reviews on a 5-year basis.

                                                       17 

                                                     Inspection of the Armed Forces Retirement Home
                                                         February 25, 2010 Report No. IE-2010-002


Recommendation:

A-9: OUSD (P&R) should review annual and periodic inspection requirements contained within
24 U.S.C. § 411, 416, 418 and new section 413(a), provided in PL 110-181, to determine the
most effective and beneficial source and the timing of AFRH oversight inspections. OUSD
(P&R) should also seek modifications to 24 U.S.C. Chapter 10 (2006), as necessary, to provide
the most effective and appropriate and efficient inspection oversight.




                                             18 

                                                         Inspection of the Armed Forces Retirement Home
                                                             February 25, 2010 Report No. IE-2010-002




Tab B – Admissions/Eligibility
Overall Assessment

This portion of the inspection examined the compliance of resident eligibility standards and the
priority system as mandated by section 412, title 24, United States Code (24 U.S.C. § 412
[2006]). Personnel at the AFRH management level and the AFRH (W) campus were knowledgeable
of their program requirements and executed their responsibilities in an effective manner. However,
AFRH was found to lack prescribed rules for the review of eligibility category sub-criteria
requirements.

Compliance with the resident stipend program as provided for by section 421, title 24, United
States Code (24 U.S.C. § 421 [2006]), was also examined during this portion of the inspection. The
program was found to be effective and compliant in providing productive activities for residents with
the additional benefit of producing labor cost savings for work that would otherwise occupy an
AFRH employee.

Admissions/Eligibility

The AFRH Marketing Office manages the admissions program at the Agency level and is the
entry point for all applications regardless of the campus for which prospective residents wish to
apply. The Marketing Office coordinates with the prospective residents by obtaining necessary
forms and documentation needed to complete an application package which is forwarded to the
admissions board for the applicable campus. The admissions board is comprised of the Chief of
Resident Services, the Chief of Healthcare (in concert with the AFRH Medical Officer), the
Marketing Office, and the Ombudsman. The board reviews all documents prior to approving or
disapproving applications. Applications are then returned to the Marketing Office for further
processing. There is currently a waiting list for approved applicants. During the admissions
process, resident eligibility categories are reviewed and for the most part tend to be dispositive.
However, several eligibility categories require that rules (guidance) be prescribed by the Chief
Operating Officer. Eligibility categories requiring specific Chief Operating Officer
determination are contained in 24 U.S.C. § 412 (2006) and are defined as follows:

   Eligibility Category 2: “Persons who are determined under rules prescribed by the Chief
   Operating Officer to be incapable of earning a livelihood because of a service-connected
   disability incurred in the line of duty in the Armed Forces.”

   Eligibility Category 3, sub-criteria (C): “… are determined under rules prescribed by the
   Chief Operating Officer to be incapable of earning a livelihood because of injuries, disease,
   or disability.”

   Eligibility Category 4, sub-criteria (B): “… are determined under rules prescribed by the
   Chief Operating Officer to be eligible for admission because of compelling personal
   circumstances.”



                                                 19 

                                                            Inspection of the Armed Forces Retirement Home
                                                                February 25, 2010 Report No. IE-2010-002


At the time of the inspection, no rules (guidance) were prescribed by the Chief Operating Officer to
guide eligibility decisions in determining whether a person was “incapable of earning a livelihood”
or had “compelling personal circumstances.” In an email dated July 28, 2009, AFRH staff requested
assistance in interpretation of the term “unable to earn a livelihood” from their legal advisors. In a
follow-up email dated September 10, 2009, the staff requested legal assistance as a broader question
arose regarding interpretation of the sub-criteria terms. At the time of this report, there are still no
rules (guidance) prescribed by the Chief Operating Officer supplementing the residency
requirements.

Another eligibility issue relates to 24 U.S.C. § 412 (2006) states that a person is ineligible to
become a resident if they have been convicted of a felony or are not free of drug, alcohol, and
psychiatric problems. Sufficient screening exists in the application process to determine whether
an applicant is free of drug, alcohol, or psychiatric problems. Currently, AFRH does not provide
background checks on prospective residents to determine the existence of felony records.
Instead, the application process relies on honest self-reporting. The Agency has drafted
Directive 8-5 “AFRH Admissions Program,” to correct this problem – it directs the Admissions
Office to ensure that a Security Background Check has been performed is completed on a
prospective resident when a report date has been established. At the time of the on-site
inspection, the draft directive was under legal review.

As provided for by 24 U.S.C. § 421 (2006), the Chief Operating Officer may accept part-time or
intermittent services of a resident in exchange for a fixed rate of pay. This is commonly referred
to as the Stipend Program. The Stipend Program, as administered by AFRH (W), addresses all
24 U.S.C. § 421 (2006) requirements. At the time of inspection, there were 48 residents
participating in the Stipend Program. Each stipend compensated volunteer was limited to
earning $120.00 per month in supporting a variety of tasks that would otherwise occupy the time
of an employee. The program is well managed and documented, and provides benefits to both
the Home and its residents.

Observation: AFRH generally ensures compliance with admissions standards and requirements.
Management attention directed toward several specific admissions program eligibility areas
would improve the administrative management of the admissions program.

Findings:

AFRH has not prescribed rules (guidance) beyond the statutory resident eligibility categories to
supplement eligibility standards for the acceptance of residents.

AFRH personnel have requested legal assistance in interpreting terminology, but no rules have
been prescribed by the Chief Operating Officer supplementing residency requirements.

The AFRH admission process does not currently include a background check ensuring applicants
have not been convicted of a felony.

AFRH Agency Directive 8-5: “AFRH Admissions Program” is a draft policy that proposes
requiring security background checks for approved residents with reporting dates. The directive
has not yet been implemented.

                                                   20 

                                                      Inspection of the Armed Forces Retirement Home
                                                          February 25, 2010 Report No. IE-2010-002




Recommendations:

B-1: The AFRH Chief Operating Officer should establish prescribed rules through formal
AFRH policy and guidance to determine resident eligibility as required by 24 U.S.C. § 412
(2006).

B-2: AFRH should conduct background checks on approved residents with reporting dates to
ensure eligibility requirements are met as prescribed by 24 U.S.C. § 412 (2006).




                                              21 

                                                         Inspection of the Armed Forces Retirement Home
                                                             February 25, 2010 Report No. IE-2010-002




Tab C – Facilities Engineering and Safety
Overall Assessment

The AFRH facilities engineering assessment
addressed campus facility operations including
safety and maintenance, preservation,
rehabilitation and restoration of historic
properties, and safety operations. We found
the AFRH grounds and resident and staff
facilities to be generally well maintained.

The Chief of Campus Operations is
responsible for the operation of facilities
engineering, and the safety functions for all
buildings and properties including the boiler
and chilled water plant operations. The Chief
of Campus Operations is also responsible for
managing building maintenance; services
contracts including pest and wildlife control;             Armed Force Retirement Home

ground maintenance; transportation; waste                      Source: AFRH Photo Archive

disposal; linen cleaning and distribution; internal mail distribution; and the handling of medical
supplies.

The majority of AFRH (W) facilities are maintained using contractors. On July 8, 2009, a 2-year
contract for AFRH facilities maintenance services was awarded to CMI Management, Inc.

The Chief of Campus Operations has published a Campus Operations’ standard operating
procedures manual and Campus Operations protocols. These documents reference various
industry codes including the 2008 National Electric Code, 2009 ICC International Performance
Code for Buildings and Facilities, residential, mechanical, plumbing, fire codes, and 29 CFR
1926 OSHA Construction Industry Regulations. We found the Chief of Campus Operations to
be managing the facilities engineering functions and contracts through his staff in accordance
with the campus standard operating procedures manual.

The AFRH Architect provided technical support to the Campus Operations staff, managed
capital improvement programs, maintained the campus master plan including Comprehensive
Historic Resource Survey Plan, and was also responsible for Historic Building Preservation of
over a dozen historic properties on the AFRH campus. The Chief of Campus Operations
complied with the Secretary of the Interior’s Standards for the Treatment of Historic Properties
(36 CFR 68 [as amended through 1995]). The Architect obtained approval from the District of
Columbia Historic Preservation Board for any deviation required in the restoration of a historic
building.



                                                 22 

                                                        Inspection of the Armed Forces Retirement Home
                                                            February 25, 2010 Report No. IE-2010-002


Our inspection of the facilities and grounds revealed several uncorrected maintenance issues.
The maintenance discrepancies noted were all known to the AFRH (W) management; however,
at the time of our inspection, the discrepancies had not reached sufficient funding priority for
repair. AFRH (W) advised that the noted maintenance deficiencies were scheduled to be
corrected in November 2009.

Maintenance Discrepancies Noted

Broken or Leaking Fire Hydrants: We found 3 fire hydrants with substantial leaks and 20
additional fire hydrants throughout the campus that are broken or require service. In total, 23 out
of 48 (48 percent) campus fire hydrants required some level of maintenance or replacement
(Figure 1).

Discussions with the Chief of Campus Operations confirmed that the three fire hydrants with
substantial leaks have been leaking for more than 2 months. Two of those fire hydrants had
major leaks that included a fire hydrant that has been leaking water for more than a year.

We also noted that some hydrants were intentionally left open and were continuously streaming
water onto campus roads and grass fields. The Campus Operations staff stated, “In some cases,
this was done to relieve pressure from the main water feed. If these hydrants were closed, there
is a potential for the main water feed to rupture and cut off water supply to the resident
facilities.”

The D.C. Fire Marshal evaluated the facility in July 2009 and prepared a report identifying
hydrants with maintenance issues. All fire hydrants were color coded with tags by the Fire
Marshal to identify hydrants that were broken or needed repairs. The D.C. Fire Marshal
identified 13 hydrants that needed to be repaired and 10 that needed to be replaced.

The Chief of Campus Operations informed us that all 23 of the previously identified fire
hydrants will be replaced or repaired by November 1, 2009.
            Figure 1. Fire Hydrants at AFRH (W)

                                                                                 = Replace
                                                                                 = Repair
                                                                                 = Good Condition



                                                                          Source: Provided by AFRH (W)
                                                                                  Chief of Campus Operations




                                                23 

                                                       Inspection of the Armed Forces Retirement Home
                                                           February 25, 2010 Report No. IE-2010-002


Observation: Fire hydrant maintenance and repair does not appear to have a high priority within
the AFRH (W) facilities maintenance plan.

Finding: Numerous Fire Hydrants are in disrepair.

Recommendation:

C-1: AFRH (W) should comply with the D.C. Fire Marshal’s recommendations and the Chief of
Campus Operations maintenance projections (November 2009) to replace 10 broken fire
hydrants and repair 13 other identified fire hydrants.

Water Pipeline Leaks: There are several water pipeline leaks around the AFRH (W) campus.
Two water pipelines were found to have major defects and were leaking hundreds of gallons of
city water daily. Although the AFRH (W) management had been aware of the leaks for two
months, no maintenance or repair action was taken at the time of the inspection.

Our findings identified three leaking water pipelines around the AFRH (W) campus.

   1) Eagle Gate near Upshur Street
   2) Pershing Drive near Arnold Drive
   3) “The Ponds” area near Pershing Drive NW

Observation: Some of the cast iron pipelines on the AFRH (W) property are more than 50 years
old and have reached their life expectancy. Water mains have been consistently breaking
throughout the campus. While we indentified leaking pipes that are in need of repair, we also
noted sections of the campus grounds where other leaking water pipes have been addressed for
repair. The 6 feet long cracked cast iron pipe in the waterline located at The Ponds was replaced
recently, but the accompanying old valve has not been replaced. However, the broken main
water pipeline located near the Eagle Gate has been discharging water for more than a year. The
pipe could not be replaced or repaired sooner due to a jurisdictional dispute with the Government
of District of Columbia. This dispute has been resolved, and the AFRH management has
accepted responsibility for repairing the broken pipeline. The Chief of Campus Operations
informed the inspection team that the other two waterlines near Pershing Drive and Eagle Gate
would be repaired by the end of November 2009.

Finding: The AFRH (W) water pipelines require replacement or repair.

Recommendation:

C-2: AFRH (W) should replace or repair the leaking water pipelines per the Chief of Campus
Operations’ stated plan of action (November 2009).




                                               24 

                                                      Inspection of the Armed Forces Retirement Home
                                                          February 25, 2010 Report No. IE-2010-002




Tab D – Information Technology
Overall Assessment

We used the National Institute of Science and Technology (NIST) SP 800-53, Revision 2,
“Recommended Security Controls for Federal Information Systems,” dated December 2007 as
the basis for development of the criteria for the Information Technology (IT) inspection area.
We compared the NIST recommended Information Assurance (IA) security controls with those
established in the AFRH Information Security Manual (ISM) and reviewed AFRH compliance
with these guidance documents. During the inspection, the IG inspection team interviewed the
AFRH (W) Chief Information Officer and the IT Security Manager to ascertain compliance and
conversancy with 15 control areas as set forth in the NIST guidance document. These areas
include: Information Security and Administration, Access Control, Audit and Accountability,
Certification, Accreditation and Security Assessments, Configuration Management, Contingency
Planning, Identification and Authentication, Incident Response, Maintenance, Media Protection,
Physical and Environmental Protection, Planning, Personnel Security, Risk Assessment, System
and Services Acquisition, System and Communications Protection, and System and Information
Integrity.

AFRH uses external contract vendors for the majority of their IA and information Technology
(IT) support functions. However, the use of contract vendors does not diminish AFRH
responsibility for the management and security processes associated with their IA and IT
systems. We found that the AFRH IA management was not fully aware of vendor support levels
being provided and that the AFRH IA management was not fully aware of NIST standards, their
own ISM, or how those standards were incorporated within the deliverables of contractor
support.

AFRH Network/Contractor Support

The AFRH IT system is categorized by AFRH as a moderate impact operational general support
system. This categorization was established based on guidance outlined in the Federal
Information Security Management Act, Publication FIPS 199 and NIST Special Publication SP
800-60. The AFRH (W) enterprise network (Figure 2) is comprised of a T3 dedicated line. This
network is segmented into three zones, which are PrimeNet Internal Network, AFRH
Demilitarized Zone (DMZ), and AFRH Wireless Subnet. The AFRH DMZ is primarily used to
host vendors’ solutions without creating a security issue for the PrimeNet Internal Network and
the AFRH Wireless Subnet. The network is monitored by a CISCO Intrusion Detection System
and a Checkpoint firewall which performs content filtering.




                                              25 

                                                        Inspection of the Armed Forces Retirement Home
                                                            February 25, 2010 Report No. IE-2010-002




                                 Figure 2. AFRH (W) Network




                                   Figure 2. AFRH Network




All AFRH (W) applications, data and storage files, and e-mail services are hosted externally at
contractor and government facilities (Figure 3). The AFRH (W) Email servers are hosted at the
Oracle Collaboration Suite Web Service facility located in Reston, VA. Employees are assigned
an Oracle Collaboration Suite’s e-mail account to provide access to the agency’s e-mail, file, and
calendar systems. Employees are also given a Novell user account that gives them access to
network resources, as well as provide a mechanism to audit login attempts to the system. The
AFRH (W) web servers are hosted at the Bureau of Public Debt (BPD)-Department of the
Treasury located in Washington D.C. which stores all AFRH (W) Private Internet Protocol
Addresses. The Resident Information System (RIS) Application Server is hosted at Logicworks
located in New York, NY.


             Figure 3. AFRH (W) – Current Application Hosting Configuration




                                               26 

                                                                 Inspection of the Armed Forces Retirement Home
                                                                     February 25, 2010 Report No. IE-2010-002


AFRH IT Staff and Guidance Documents

The AFRH IT staff consists of a Chief Information Officer, a Senior Agency Information Security
Officer, a civil service employee, and a contractor. The IT team is responsible for the operation of
approximately 200 clients with a variety of operating system platforms, one Novell server, one NT
file server, local network, and contractor oversight. AFRH established the AFRH ISM, dated May
15, 2007, based on federal laws, regulations, and NIST standards and guidance. The purpose of
the AFRH ISM is to define security policies and safeguards and to present critical security issues.
The AFRH ISM adequately provides guidance for implementation of information security for all
AFRH personnel and support contractors. However, the results of our inspection and interviews
indicated that the AFRH IT management personnel were not fully aware of the existing
established policies, and therefore, AFRH management had not effectively established the IT
oversight function to ensure compliance with guidance documents, either internally or in contract
support.

Observation: Overall, no critical IA/IT security protocol issues were found. However, AFRH IT
management personnel were not completely familiar with contracted deliverables or contractor
functions in support of the AFRH IT systems. Although contractor support for the AFRH IT
system is a viable management alternative, AFRH leadership must be familiar with all
requirements and contracted services in order to properly determine contract deliverables, and to
administer and monitor contractor performance. 12 AFRH has developed an ISM that adequately
addresses the recommendations of NIST SP 800-53 Revision 2; however, AFRH (W) has not
completely implemented Information Security policies as set forth in the AFRH ISM.

Finding: The AFRH IT contract oversight function is inadequate to ensure compliance with the
AFRH information security policy at its facilities and contractors’ sites where AFRH servers and
information are stored and hosted.

Recommendations:

D-1: AFRH should review and insure compliance with the information assurance policies as set
forth in the AFRH Information Security Manual.

D-2: AFRH should ensure compliance with established information security policy at AFRH (W),
and contractors’ sites where AFRH servers and information are stored and hosted.




12
  At the time of the inspection, the AFRH (W) was preparing a solicitation to have their data and all IT services
hosted by the National Business Center (NBC), Department of Interior. The AFRH should ensure the contract with
NBC includes provisions that ensure compliance with the information assurance policy as set forth in the AFRH
ISM.


                                                       27 

                                                                  Inspection of the Armed Forces Retirement Home
                                                                      February 25, 2010 Report No. IE-2010-002




Tab E – Recreation Services (Resident Services)
Overall Assessment

The AFRH (W) Recreation Services is professionally managed by enthusiastic, customer-

friendly personnel. The AFRH (W) recreation programs provide a wide and creative variety of

activities that enhance the residents’ morale, and provide a venue to facilitate resident activity.

Recreation facilities are generally clean, effectively managed, and well-equipped. 

Appendix F provides a synopsis of the compendium of recreation services offered at the

AFRH (W).


The Recreation Services program is managed by the Recreation Director of Resident Services

and is supported by eleven full-time civil service employees. Approximately 60 volunteer

(stipend and non-stipend) also work on a regular basis throughout the recreation facilities. 13


AFRH Agency Directive 8-7 establishes an AFRH Agency Recreation Services Policy.

Recreation Services provides programming and facilities for residents in independent living, 

assisted living, and long-term care. The Chief of Resident Services provides daily operational

oversight of budget, contracts, and resources for the operation of the Recreation Services Policy. 

The Recreation Supervisor provides strategic oversight for programming, facility maintenance, 

contracting and budget requirements; and furnishes all technical and professional support to the

Chief of Resident Services to ensure that the policy is successful. 


In July 2009, the Recreation staff conducted a survey of residents in the Scott and Sheridan 

resident housing areas to determine their level of satisfaction with and usage rate of various

recreational activities. Survey responses were received from a total of 341 residents. When 

asked to rate customer service, 74 percent of respondents rated it above average or better. When 

asked to rate recreational activities, 71 percent of respondents rated the activities as above

average or better. When asked to rate facilities, 70 percent rated the facilities above average or

better. The most used recreational facilities found in the survey were the library, fitness center,

and package wrapping room. 


Observation: The Scott and Sheridan building house primarily Independent Living residents. 

The LaGarde building houses primarily Assisted Living and Long-Term Care category residents. 

In the Scott and Sheridan building, there are a variety of trips and special events scheduled

during the week and on the weekend. A monthly schedule is posted on the Scott and Sheridan 

building bulletin boards, dining room tables, and advertised on AFRH (W) closed circuit

television. The Recreation Therapy Supervisor at the LaGarde Building reported that the

Residents preferred more activities during the week versus weekends; however, the lack of





13
  The AFRH stipend program is designed for residents to volunteer their time and expertise to assist AFRH
programs run smoothly and efficiently and get paid for doing so. Those residents that volunteer their time and
expertise on a non-stipend basis do not get paid.

                                                        28 

                                                         Inspection of the Armed Forces Retirement Home
                                                             February 25, 2010 Report No. IE-2010-002


weekend activities was one of the concerns voiced during our Resident Focus Group sessions
(see Tab N).

Residents that reside at the LaGarde building require additional assistance for off site trips due to
their medical conditions or reduced ambulatory abilities. We were advised by the Recreation
Therapy Supervisor at the LaGarde Resident building that two Recreation Therapy staff positions
were lost in November 2008. We were also advised that those staff positions will not be
replaced as a result of reduced staffing requirements associated with the forthcoming return of
AFRH (G) residents to Gulfport. The Recreation Therapy Supervisor reported that due to the
staff reduction, weekend trips for LaGarde residents are not currently possible.

Finding: Off-site weekend recreation trips were an issue of concern noted by several residents
who participated in our focus groups. Our review indicates that the majority of comments
related to weekend off-site excursions were from residents of LaGarde Resident (Assisted Living
and Long-Term Care) housing. Resident opinion was that weekend sponsored/chaperoned
recreation trips had become very rare. In LaGarde building, a majority of the bus trips take place
on Wednesdays.

Recommendation:

E-1: AFRH (W) should survey all residents, including LaGarde residents, to determine demand
for weekend offsite activities and trips. If sufficient demand exists, investigate alternatives for
increasing the schedule of weekend offsite activities and the supporting staff or volunteers that
are required to accommodate all residents, regardless of residence category.




                                                 29 

                                                       Inspection of the Armed Forces Retirement Home
                                                           February 25, 2010 Report No. IE-2010-002




Tab F – Human Resources Management
Overall Assessment

Based on interviews with the AFRH Human Resources (HR) officials and employee Focus
Groups, HR programs were reported to be effective and meeting mission needs. The AFRH HR
assessment addressed employee development and performance management that were covered in
the context of issues that were brought up in Focus Groups and site visit meetings.

All HR policy development, interpretation, guidance and oversight, are provided by the Chief
Human Capital Officer, and supplemented by contractor support. Since October 2004,
operational HR services are provided under a cross-servicing arrangement by the Bureau of
Public Debt (BPD). Our review results indicate that this arrangement is working well, and has
consistently provided timely and efficient HR support to the AFRH.

The AFRH HR programs are subject to Office of Personnel Management (OPM) regulations and
policy – DOD HR policies are not applicable to this agency. As a result, the evaluation focused
primarily on HR compliance and program implementation in accordance with OPM regulations.
AFRH works closely with the OPM Center for Small Agencies regarding HR initiatives and
requirements. AFRH is also subject to OPM compliance reviews, including an OPM review of
the AFRH HR programs conducted in October 2009. Specifically, the OPM review covered all
HR aspects at AFRH to ensure HR regulations and policies are followed. Because of OPM’s
evaluation, we are deferring to their findings and recommendations in the areas of regulatory
compliance. At the time of this report, OPM had not released a written product of its results.

Employee Focus Groups identified the lack of tuition assistance as a concern. The area of
training and development has been identified as a key challenge in the draft of the AFRH Human
Capital Strategic Plan. A comprehensive assessment of learning needs and identification of
training priorities is scheduled to begin in January 2010.

Staffing

At the time of the onsite visit, management was focused on avoiding a future reduction in
force (RIF) at AFRH (W). This focus was based on projected reduced staffing needs due the
projected number of resident transfers to the Gulfport facility opening in 2010 and to reduced
resident capacity in the planned replacement of the Scott Building. Current efforts to avoid a
RIF are focused on the effective utilization of permanent and contract staff to provide the
necessary flexibility to adjust staffing levels. Additionally, OPM is reviewing staffing program
management and implementation through case file review as part of their evaluation. Therefore,
we are deferring to OPM’s findings in this area.




                                               30 

                                                      Inspection of the Armed Forces Retirement Home
                                                          February 25, 2010 Report No. IE-2010-002


Equal Employment Opportunity

The AFRH Equal Employment Opportunity (EEO) program is administered through an
agreement with the Department of the Navy. Under this arrangement, an EEO Manager is
provided, along with appropriate EEO support services. The Chief Human Capital Officer also
provides direction to the EEO program. In 2001, AFRH had 765 Full Time Equivalents (FTEs),
and FTEs have continued to drop since then. Currently, AFRH has approximately 300 FTEs.
AFRH expects this drop to continue until approximately October 2010, when AFRH (G)
reopens.

Employee Performance Appraisals

Employee Focus Group comments and discussions with the Chief Human Capital Officer
revealed delays in completion of the current performance cycle, including cash performance
awards. The initial performance cycle was from January 1, 2008, through December 31, 2008;
however, due to turnover in key management positions at the end of the rating cycle, the rating
period was extended until March 31, 2009. Further delays occurred, so that the performance
management process was still not completed by the time of our on-site review (six months
subsequent to the end of the rating period). However, the final ratings were being communicated
to employees and the performance award payouts were scheduled to be processed by October
2009. During this review, it was noted that required mid-year progress reviews were seldom
conducted, which deprived employees of valuable performance feedback.

Finding: Employee appraisals were not expeditiously completed at the end of the performance
cycle and midyear progress reviews were not properly conducted.

Recommendation:

F-1: AFRH (W) should ensure recurring and timely employee performance evaluation and
counseling. Emphasize to managers and supervisors, on an ongoing basis, the importance of
regular performance feedback and formal progress reviews.




                                              31 

                                                       Inspection of the Armed Forces Retirement Home
                                                           February 25, 2010 Report No. IE-2010-002




Tab G – Contracting
Overall Assessment

AFRH partnered with the Bureau of Public Debt to provide procurement activities for supplies
and services. Overall, the BPD provided the Agency adequate service in accordance with the
Federal Acquisition Regulation (FAR) and Department of Treasury Acquisition Regulation
(DTAR). A few areas were noted during this inspection that required additional AFRH and BPD
attention and effort to resolve. The areas are as follows:

   1.	 Increased focus on documentation of surveillance in accordance with contract quality
       assurance surveillance plans (QASP)
   2.	 Formulation and execution of consistent policy and guidance for Contracting Officer
       Technical Representatives (COTR)

Outsourced Procurement

In 2004, AFRH outsourced their purchasing responsibilities to the BPD’s Administrative
Resource Center (ARC) in Parkersburg, WV. The BPD provided procurement services in
accordance with the Memorandum of Understanding (MOU) between the Treasury Franchise
Fund ARC and AFRH. Services included simplified acquisitions, formal contracts (over
$100,000), and contract administration. Procurement services were conducted in accordance
with the FAR and the DTAR. The FY 2008 cost for performing procurement services was
approximately $1.05M, which included a range of dedicated contracting personnel (nine from
October to March, six from April to September.)

We reviewed 53 active AFRH contracts and interviewed 8 COTRs at AFRH (W). Overall, BPD
maintained AFRH contract files in an excellent manner. The BPD contracting officials
interacted with AFRH COTRs regularly by phone, electronic mail, and in-person visits. COTRs
indicated they received consistent and effective BPD support for the procurement of services.

The BPD contracting personnel consistently ensure contracting actions are funded, advertised,
competed, evaluated, and negotiated according to FAR requirements. BPD acquisition processes
involving market research, contracting peer review, and documentation of fair and reasonable
price determinations are noted as excellent.

Observation:

Only three of the eight COTRs produced contract surveillance documentation for review.
COTRs were, however, engaged in ongoing contract activities and indicated they were closely
monitoring contract services for compliance with the statement of work. Based on
documentation noted in contract files, BPD contracting officers consistently assigned trained
personnel for COTR duty on a wide variety of outsourced campus functions, including food
service, grounds maintenance, security, and custodial service. AFRH COTRs must ensure that
quality assurance surveillance plans and quality evaluations of contractors are accomplished in

                                               32 

                                                       Inspection of the Armed Forces Retirement Home
                                                           February 25, 2010 Report No. IE-2010-002


accordance with FAR 37.602-1 and 46.4. Documenting surveillance on government contracts is
essential to having a good past performance tool to use for award decisions.

Finding: AFRH COTRs did not consistently document contract quality assurance actions and
surveillance per the guidance in the AFRH Agency notice 09-04 and Federal FAR 46.4.

Recommendation:

G-1: AFRH, in conjunction with Bureau of Public Debt, should ensure that quality assurance
actions are consistently documented.

Observation: AFRH would benefit from development of a joint policy with BPD regarding
management of COTRs. Currently, AFRH COTRs are subject to guidance in the AFRH Agency
notice and the DTAR 1001.670-2. DTAR 1001.670-2 indicates COTRs need “at least” 24 hours
of a basic acquisition course that includes pre-award, post-award, and procurement ethics
training. The AFRH agency notice requires 40 hours but does not specify pre-award, post-
award, and procurement ethics training. Also, the DTAR requires eight hours of maintenance
training per year. The AFRH notice specifies its requirements only in a two year fashion (24
hours). These inconsistencies could lead to confusion and lack of compliance with directives for
COTRs and contracting personnel.

Finding: The requirements for COTR training in AFRH Agency notice 09-04 are not consistent
with those listed in DTAR 1001.670-2.

Recommendation:

G-2: AFRH, in conjunction with the Bureau of Public Debt, develop a joint COTR policy that is
consistent with existing directives.




                                               33 

                                                        Inspection of the Armed Forces Retirement Home
                                                            February 25, 2010 Report No. IE-2010-002




Tab H – Security
Overall Assessment

The AFRH Security assessment addressed physical security safeguards, training programs,
manpower utilization, electronic security systems, and security/investigative standard operating
procedures. Physical Security safeguards were assessed by applying security design criteria and
requirements developed by the Interagency Security Committee (ISC). The ISC was established
by Exec. Order No. 12977, 60 Fed. Reg. 54411 (1995), as amended by Exec. Order No. 13286,
68 Fed. Reg. 10624 (2003), to establish minimum physical security standards and measures for
all federally owned and leased facilities for non-military use. Compliance with Homeland
Security Presidential Security Directive (HSPD) – 12 was also assessed pertaining to the
AFRH (W) adherence to the required common identification standard for Federal Employees and
Contractors. We also reviewed guidance established by internally developed AFRH Standard
Operating Procedures (SOPs).

Manpower utilization, training programs, and security SOPs emerged as a significant concern
during the inspection due to questions pertaining to jurisdiction and statutory language
authorizing Security Division personnel to conduct various security and law enforcement
investigative and patrol activities as described in Security Division SOPs.

Physical security safeguards were found to be adequate with the exception of security planning.
Physical security performance measures were not established as required per ISC policy which
requires Federal Departments and agencies to use performance measurement and testing to
assess physical security programs.

Jurisdiction

A finding and recommendation provided during the 2005 Triennial Inspection was premised
upon AFRH not establishing formal policy and guidance for baseline campus security standards.
At the time of this inspection, AFRH had not yet promulgated policy and guidance; however, a
draft copy of a proposed Agency directive was provided to the inspection team. AFRH (W) has
been challenged by security jurisdiction issues, and has sought two legal opinions as to the
jurisdiction of their security forces. In a review entitled “Legal Review – Jurisdictional Issues”
solicited by the AFRH from a DOD component legal office an attempt was made to define the
status of the AFRH as a federal enclave and how that status related to the authority of AFRH
security personnel. However, that opinion was not conclusive indicating the grounds at the
AFRH (W) are not exclusively federal nor is the campus a federal enclave. The document also
opined that the AFRH (W) security personnel conducting the policing of the campus are not
police but private security, employed by AFRH and share no authority/jurisdiction beyond that
of private citizens within the District of Columbia. Therefore, investigative and arrest authority
are reserved to the geographically determined ‘police authority,’ (i.e. Metropolitan DC Police).
This was the second opinion provided related to security operations at AFRH (W), the first being
offered in 1997. Both opinions were similar in findings.


                                               34 

                                                             Inspection of the Armed Forces Retirement Home
                                                                 February 25, 2010 Report No. IE-2010-002


Although AFRH has not formally promulgated security instructions or directives, the
AFRH (W) campus has developed security related Standard Operating Procedures, many of
which address areas of police enforcement activity such as interrogating suspects, conducting
DUI/DWI stops, and investigating crimes within the grounds of the AFRH-W campus. Based on
legal reviews, it appears that such activity is beyond the jurisdiction of AFRH security personnel.

Even though AFRH was in receipt of the legal reviews from a DOD component legal office, no
guidance, or other direction was formally given to suspend existing Standard Operating
Procedures for AFRH (W) security personnel to mitigate possible violation of law and/or
regulation by engaging in potentially unauthorized law enforcement-related activities. During a
conference among a DOD IG inspector, AFRH officials, and an attorney from the office who
wrote the most recent opinion, a representative from AFRH stated interim guidance would be
published to address the issue. 14

Observation: AFRH (W) security force jurisdiction has apparently been an issue of concern for
the AFRH leadership for several years. Two legal opinions have not served to fully resolve
AFRH (W) security force jurisdiction or authority.

Finding: Jurisdiction and police authority for the AFRH (W) Security Department is not
adequately definitized.

Recommendation:

H-1: AFRH should determine appropriate jurisdiction for AFRH (W) security operations that
involve potential law-enforcement type activities and perform a comprehensive review of the
current status of AFRH (W) standard operating procedures and issue formal guidance
commensurate with authority allowed by public law and regulation.

Physical Security

AFRH (W) employs a mix of civil service and contract security personnel for exterior and interior
security operations. There are 14 civil service personnel, which includes the Chief of Security, a
Pass and Permits clerk, and an investigator. The remaining 11 security personnel are assigned among
three eight-hour shifts providing coverage for the campus. In addition, contract security personnel
are posted one-per-shift at the Eagle main gate, although AFRH (W) Standard Operating Procedures
require two personnel per shift for gate sentry duty. The security desk sergeant and main gate are
static posts manned 24 hours a day, 7 days a week. Personnel use radios as their primary means of
communication. Closed Circuit Television is used by the security desk to monitor the main gate,
Sheridan and Scott Hall lobbies, and fitness center. Patrol coverage, whether on foot or motorized, is
limited in all other areas of the campus due to manpower constraints.

Portions of the campus fence line are brick with wrought iron poles and barbed wire outriggers
affixed atop the poles. The majority of the fence is normal gauge steel fence fabric affixed to poles



14
  On October 27, 2009 the AFRH management disseminated an internal electronic message suspending
investigative activities pending implementation of new AFRH Security policies.

                                                    35 

                                                          Inspection of the Armed Forces Retirement Home
                                                              February 25, 2010 Report No. IE-2010-002


with metal ties and outriggers affixed atop the poles. Portions of the fence are considered adequate
although there is severe rust on sections of the wrought iron and fencing fabric. However, grounds
maintenance in and around the southwest fence line require immediate attention. Large portions of
this fence line are completely hidden by overgrown foliage, trees, and bushes which create
significant security vulnerability. Tree limbs are allowed to grow up and over the fence extending
outside the perimeter onto public sidewalk areas. Interior grounds have the same security
vulnerability. Bushes, tree limbs, and shrubs are not properly trimmed, creating an opportunity of
concealment for intruders. There is no established uniform security/threat nomenclature visible to
visitors as recommended by ISC guidance.

At the request of the Chief of Security, the Metropolitan Police Washington DC Department (MPDC)
conducted a physical security study of AFRH (W) in June 2005. The study did not include prevalent
crime information regarding adjacent neighborhoods nor did the study consider required ISC
Physical Security Standards in its assessment. At the time of the inspection, there was no
documentation, process, or procedure in place to employ ISC required physical security performance
measures.

Observation: AFRH (W) threat and vulnerability has not been formally analyzed. However,
AFRH (W) has physical security protections that are inadequately maintained thereby diminishing
the physical security posture for which those protections were designed. Guard and patrol staff
levels are not based on an analysis of local threat or vulnerability.

Finding: AFRH (W) does not have a current physical security study that considers ISC Physical
Security Standards.

Recommendation:

H-2: AFRH (W) should conduct a thorough security assessment of the AFRH-W campus with the
requisite technical and professional expertise for assessing security needs of federal facilities for
nonmilitary use. The assessment should incorporate as a factor the legal and statutory limitation
applicable to AFRH (W) security personnel in the performance of their official duties.

Security Planning/Measurement

AFRH Security SOP (2-49) requires coordination of security with local law enforcement. At the
time of this inspection, there were no formal processes or arrangements in place between the AFRH
(W) Security Division and other governmental agencies. We found no record of memorandums of
understanding and/or agreement (MOU/MOA) between AFRH (W) and the designated local police
authority – MPDC. There was also no MOU/MOA between AFRH and federal law enforcement
agencies regarding the investigation of federal crimes.

Section 5 of Exec. Order No. 12977, 60 Fed. Reg. 54411 (1995), as amended by Exec. Order No.
13286, 68 Fed. Reg. 10,624 (2003), and the policy established by the ISC in the 2009
Department of Homeland Security document entitled “Interagency Security Committee – Use of
Physical Security Performance Measures,” requires federal agencies to assess and document the
effectiveness of their physical security programs through performance measurement and testing.
Performance measures should be based on agency mission and goals and performance results


                                                 36 

                                                         Inspection of the Armed Forces Retirement Home
                                                             February 25, 2010 Report No. IE-2010-002


require linkage to goals and objectives development, resource needs, and program management.
We found no record of assessment related to the security programs employed.

Observation: AFRH (W) does avail itself of MPDC police services. However, specific scope of
police and investigative services required by AFRH (W), or provided by the District of Columbia
or other Federal Agency, is not codified in formal agreements or acknowledgments.
Determination and establishment of specific agreements would be beneficial to all agencies
concerned. Performance testing of the effectiveness of current security services would facilitate
refinement of the AFRH (W) security plan, training requirements, and requirement for external
security and police services.

Findings:

AFRH (W) has not formally established agreements with other Federal or local security or
policing supporting agencies.

AFRH has not developed security performance measures or tested security procedures currently
in place.

Recommendations:

H-3: AFRH (W) should engage other Federal and local agencies and local security or policing
support to enter into written agreements.

H-4: AFRH (W) should develop security performance measures and implement recurring test
analysis to validate effectiveness of security procedures

Security Training

A baseline security training program with SOPs and a master training task listing existed. Civil
service security personnel were issued expandable batons and pepper spray canisters. Although
initial training was completed for all current civil service security personnel, refresher training
occurred only within 30 days of the anticipated DOD IG inspection with no record of any other
training in the period intervening between the 2005 Triennial Inspection and the DOD IG inspection.
In some cases, personnel had not been trained on one or both of these items for two or more years.
Furthermore, while training records were developed for civil service security personnel,
documentation inconsistencies were noted in all records reviewed. There was no supporting
documentation or other evidence of training material such as lesson plans, certificates, or testing
results to validate the claimed competencies.

Observation: Security training was reviewed based on existing AFRH Security Standard
Operating Procedures. Security training requirements must be fully assessed subsequent to
resolution of AFRH jurisdiction and security patrol authority issues. Although the inspection
team noted several discrepancies in security training documentation and availability of training
support tools, no specific recommendations are offered at this time because security jurisdiction
and related required competencies need to be developed first.


                                                37 

                                                       Inspection of the Armed Forces Retirement Home
                                                           February 25, 2010 Report No. IE-2010-002



Tab I – Medical
Overall Assessment

The Air Force Inspection Agency medical inspection team conducted the following activities: 1)
revised the Health Services Inspection guide developed by the AFIA team that inspected AFRH
in 2005; 2) verified follow-up in key healthcare service areas where accreditation agencies
requested improvement; 3) annotated issues in health service quality opportunity; 4) noted
updates and changes made by the facility; and 5) recommended avenues and options for
improvement in healthcare services.

Overall, general medical healthcare is considered satisfactory and meets professional practice
standards. As discussed in the Senior Leadership Section (Tab A), AFRH would benefit from
additional guidance and direction from the Deputy Director, TRICARE Management Activity in
the role as the AFRH Senior Medical Advisor, as well as proactive engagement of the Local
Board, particularly in the conduct of legislated annual assessments of AFRH.

Within AFRH (W) there exists an extended vacancy in the position of Chief of Healthcare
Services. The gap in this position may be contributing to deficiencies that have been noted in
committee minutes documentation; action plans for resolution of issues; and overall information
flow and coordination across departments.

Additionally, it is the opinion of the medical inspectors that AFRH lost an element of clinical,
peer, and record review when it transitioned from Joint Commission on Accreditation of
Healthcare Organizations (JCAHO) to the Commission on Accreditation of Rehabilitation
Facilities (CARF) accreditation. Although there is overlap in the focus area sections observed by
both organizations, clinical medical areas were best served through JCAHO processes and the
CARF was best for a review of continuing care (administration and services). Due to the unique
AFRH establishment, (providing both clinical care and continuing care), AFRH may best be
served with a systematic/periodic review of its entire operations involving both CARF and a
focused ongoing clinical review element.

AFRH Demographics

It is the opinion of the medical team that the residents at AFRH (W) appear generally fit and
active for their age. The present population consists of 901 males and 104 female residents. The
average age is approximately 83 (an increase from the average of 78 in 2005) with ages ranging
from 45 to 104. The residents live together in a cohesive community within three separate
buildings (Scott, Sheridan, and LaGarde). Approximately 20 percent of the population requires
Long-Term Care (LTC) or Assisted Living (AL) services, which they receive in a modern,
separate facility (LaGarde) as well as in several reserved beds within in the Independent Living
(IL) facility (Scott Hall).

A relatively small proportion of AFRH (W) residents required AL (approximately 7 percent) or
LTC support (approximately 14 percent) – (reference Table 2). A recently established


                                               38 

                                                         Inspection of the Armed Forces Retirement Home
                                                             February 25, 2010 Report No. IE-2010-002


A Memory Support Unit to care for demented residents now exists which benefits the
management of those patients requiring the special attention.

Resident capacity and occupancy rates as of September 2009 are displayed below:

       Table 2. Armed Forces Retirement Home – Capacity and

       Occupancy Rates (values rounded)


        Residency Category                      AFRH-W

                                  Capacity    Residents     Occupancy
       Independent Living          1017          783           77%
       Assisted Living              75           66            88%
       Dementia Care                23           20            87%
       Long-term Care               150          136           91%
       Facility Totals             1265         1005           79%


Healthcare Services Element Assessment

The AFRH (W) Healthcare Services Department has approximately 163 staff personnel
including four direct hire physicians. Currently, the Chief of Health Services position is vacant.
The duties of the Chief of Health Services have been delegated to the AFRH (W) Director as an
additional duty beginning in November 2008. Other professional staff include two Certified
Nurse Practitioners (CNPs); one dentist; one contract podiatrist and one optometrist. Overall
clinical provider availability is considered good for outpatient services. The AFRH (W) staff
conducts daily floor/ward rounds on the inpatient (AL, IL and LTC) services. A provider is on-
call 24 hours a day, 7 days a week for in-house patient care issues. Night emergency response
for injuries, accidents or deaths is adequately covered by 911 Emergency Services.

The remaining healthcare staff consists of: 1 dental administrative technician (who serves as a
hygienist); 1 dental technician; 2 pharmacy technicians (1 transient for deliveries through Walter
Reed Army Medical Center [WRAMC]); 6 clinical nurses (RNs) (adjusted vacancies covered
through contract services); 37 licensed practical nurses (adjusted vacancies covered through
contract services); and 89 nursing assistants (adjusted vacancies covered through contract
services). Additional positions such as Medical and Nursing Directors, assistant directors,
educators, and trainers that play vital roles in resident healthcare and management make up the
remaining mix of staff. Based on resident population and clinic demand, the inspection team
identified the following potential shortages: one dentist and one dental hygienist.

Formal governance of healthcare services is coordinated under an Executive Management
Committee (EMC) that serves as the oversight body to all campus functions. The scope of
medical services provided at AFRH (W) includes Internal Medicine/Family Medicine,
Psychology, Nutrition, Social Work, Rehabilitation (physical, occupational and speech therapy),
Dentistry, and Podiatry. Contract services exist for mobile radiology and dentistry. There are no
diagnostic services onsite other than dental x-rays.


                                                39 

                                                         Inspection of the Armed Forces Retirement Home
                                                             February 25, 2010 Report No. IE-2010-002


Tertiary care and other specialty services are available at WRAMC and a nearby Veterans
Affairs Medical Center (VAMC). Convenient shuttle service is offered between these facilities
several times per day. Eyeglasses fabricated by a DOD facility in Virginia are provided to the
residents free-of-charge. Additional area treatment facilities include Bethesda Naval Hospital,
Washington Hospital Center, and Providence Hospital. The proposed closure of WRAMC
creates some concern to the medical inspectors due to a potential increase in patient load at the
VAMC as well as the increased distance for travel to the new combined military medical center
in Bethesda.

Medical committee minutes documentation and information flow was deficient for action plans;
referral or resolution of issues; and required refinement and coordination at all levels. This is a
repeat finding noted from the 2005 assessment. Medical staff members were aware of the
previous findings, but meeting minutes still lacked progress for suggested action plans,
discussion, and issue resolution. The extended vacancy of the Chief of Healthcare Services
position may have contributed to this lack of progress due to the gap in leadership and
information flow.

Observation: Medical Executive Committee minutes and documentation require refinement and
coordination at all levels.

Recommendation:

I-1: AFRH (W) should assess the effect that the vacancy of the Chief of Healthcare Services
position has had on these documentation and standardization deficiencies and prioritize the
necessary personnel or organizational resolution to rectify the extended gap.

Observation: With the transition from JCAHO to CARF, an element of clinical, peer, and record
review oversight may have diminished. The two organizations overlap in their areas of focus;
however, JACHO provides standards and oversight for clinical services that CARF does not. At
the same time, CARF provides strength with review of continuing care processes, services and
aspects of the Home that JCAHO does not.

Recommendation:

I-2: OUSD (P&R) should direct the Senior Medical Advisor (Deputy Director TMA) to
determine, in consultation with the AFRH Chief Operating Officer and AFRH (W) Medical
Director, an appropriate practice for supplementing CARF accreditation through a focused
ongoing clinical review and oversight element.

Resident Care/Credentialing

Review of credential files revealed that the clinicians providing care are appropriately licensed
and credentialed. The AL, LTC and “Specialty Care” Dementia Unit residents are managed as
inpatients with an assigned provider team that includes a physician or CNP. Outpatient and
inpatient records generally reflect appropriate health maintenance activity in diabetes care,
immunizations, cancer screening, functional and substance-abuse assessments and

                                                40 

                                                          Inspection of the Armed Forces Retirement Home
                                                              February 25, 2010 Report No. IE-2010-002


anticoagulation therapy management. Substantial improvements from the previous inspection in
2005 were made in the tracking of laboratory data due to utilization of the local military
Composite Healthcare Computer System (CHCS). For resident admissions, credentialed
providers performed histories and physical examinations. New policy has been established for
weekly calls to follow up hospitalized residents.

A review of access to medical care revealed minimal to no waiting times for appointments with
availability tailored to individual needs. Typically, 7 to 10 patients per physician are seen daily
in the clinic. Scheduled outpatient care is available in the Ambulatory Care Wellness Clinic five
days a week. Walk-in patients are offered the same access and seen on a same-day basis
dependent on triage priorities and the set schedule. Virtually all IL residents use the onsite
Ambulatory Care Wellness Clinic for initial acute illness or injury.

The IL residents have the option of using an AFRH staff physician as their primary care
provider. A review of records, augmented by resident interviews, found that 70 to 80 percent of
IL residents continue to choose this option. The remaining IL residents use other providers at
local military or civilian medical facilities. The AL and LTC residents receive primary care from
their respective ward physicians. The majority of acute inpatient care and specialty outpatient
service is provided by nearby local facilities. However, a number of local facility MOUs require
updating or revision to accurately reflect those services available or provided.

The pharmacy technician staff provides satisfactory support to the residents and medical staff.
AFRH (W) maintains a unit-dose dispensing system to support AL and LTC inpatient residents.
Dispensing, monitoring and review are accomplished through a contract system that routinely
reports to the PI Committee. The technician primarily provides a custodial medication service
for dispensing maintenance medications with a maximum 90-day supply issued to outpatient
residents. Other than managing prescription delivery from WRAMC, occurring 5 days per week,
the pharmacy technician has little involvement in the provision of clinical services. The
dispensing process mitigates the labor-intensive, inefficient, and error-prone system reported in
the previous triennial inspection. Prescription orders or outpatient services average two days and
the inpatient medication order turn-around time average an acceptable four hours. The staff
strictly monitors and appropriately stores drugs in a double-locked narcotics container.

The AFRH dentist has been in place for over five years and spends significant time providing
restorative rather than preventive care. The dentist is properly credentialed and well-versed in
the standards of care. Facility dental SOPs are through U.S. Army and community standards
outside of the CARF assessments. The department patient load average for outpatient and
inpatient visits/procedures per month justifies the need for an additional dental hygienist position
to better meet community standards. To supplement onsite dental services, a mobile dental
contract captures the appointment load for AL and LTC residents. However, the current dental
clerk is scheduled to depart, and there will be no hygienist to cover all of the extra duties that the
clerk is currently performing. The proposed replacement with a general administrative
technician will not suffice for the skill sets required. Dental record accountability is negatively
impacted by the lack of an electronic scheduling and patient census/visit log. The current hand­
written log is difficult to read and comprehend. The dental staff would benefit from enhanced
communications with WRAMC, VAMC and Fort Meade, MD, dental clinics. There are no

                                                 41 

                                                         Inspection of the Armed Forces Retirement Home
                                                             February 25, 2010 Report No. IE-2010-002


formal dental MOUs, but rather an assumed agreement through regular facility support for
medical care. Also, dental representation should be incorporated into Medical Executive
Committee meetings to improve overall coordination of medical services.

Optometry services provided services for three days per week with prescriptions being filled
through local and military service provisions. There is minimal to no waiting for appointments.
Medical Executive Committee meetings and minutes do not reflect an indication of Optometry
service assessments, and activities.

Recommendations:

I-3: AFRH (W) should establish formal dental referral and coordination affiliations through
Memoranda of Understanding with local community and DOD facilities.

I-4: AFRH (W) should ensure that all clinical care provider group services, assessments, and
activities are incorporated into the Medical Executive Committee meetings and minutes.

AFRH (W) Nursing Services

The local area civilian agency requirement standard for direct nursing staff involvement and care
for LTC patients is 3.5 hours per patient per day; AFRH (W) provides an average of 3.8 hours.
The local area civilian agency requirement standard for direct nursing staff involvement for AL
patients is 2.5 hours per patient per day; AFRH (W) provides an average of 2.8 hours. Minimum
nurse coverage for day, evening and night shifts is outlined below:

Table 3. AFRH (w) Nursing Services
                Assisted Living                         Long-Term Care – LaGarde (L)
 Shift      Scott Hall     LaGarde            L3              L4           L5        Dementia
              FTE            FTE                                   FTE
 Day        2 RNs/LPNs,    2 RNs/LPNs,    2 RNs/LPNs,     2 RNs/LPNs,    2 RNs/LPNs,     2 RNs/LPNs,
               4 NAs          4 NAs          5 NAs           5 NAs          5 NAs           5 NAs
 Evening    2 RNs/LPNs,    2 RNs/LPNs,    2 RNs/LPNs,     2 RNs/LPNs,    2 RNs/LPNs,     2 RNs/LPNs,
               4 NAs          4 NAs          5 NAs           5 NAs          5 NAs           5 NAs
 Night      2 RNs/LPNs,    2 RNs/LPNs,    2 RNs/LPNs,     2 RNs/LPNs,    2 RNs/LPNs,     2 RNs/LPNs,
               3 NAs          3 NAs          4 NAs           4 NAs          4 NAs           4 NAs



The Nursing Director provides strong leadership and guidance ensuring delivery of nursing care
services in accordance with the policies and SOPs set forth by the AFRH (W) Administrator and
the Medical Director. Although the Nursing Service has specific SOPs, there are no supported
documents indicating the SOPs were approved or set forth by the Nursing Director.

The Nursing Director ensures nursing competency by closely monitoring the facility’s staff
education and training programs. More than 95 percent of the staff received health and wellness
training in courses supported by outsources, such as Walter Reed Army Medical Center and
Johns Hopkins Hospital. Additionally, the director and her staff effectively reorganized the
department and balanced resident supervision and care based on need. Overall, the nursing care


                                               42 

                                                         Inspection of the Armed Forces Retirement Home
                                                             February 25, 2010 Report No. IE-2010-002


provided to the residents is met by a qualified nursing staff, although there is some concern by
the staff regarding the availability of professional education opportunities.

Annual birth month assessments of resident health and vigilant daily observations by staff
continue to be the surveillance tools for detecting declines in health or functional status.
Significant efforts are made to maximize and maintain independent functioning, within safety
limits. The nurse practitioners conduct annual resident assessments that include a physical exam,
depression screening, and an overall functional assessment.

An infection control program is in place to monitor compliance with AFRH (W) infection
control policies and procedures, to investigate, control and prevent infections. The nursing staff
use appropriate infection control precautions in caring for the residents.

The Performance Improvement (PI) Committee sets the foundation for overall Healthcare
Services oversight and activities. This committee’s function is employed only for the Healthcare
Services department, and there is little evidence of PI data transfer between departments.
Collected data is prioritized and aggregated to improve and/or enhance resident care. Effective
risk management for infection control, ward falls, and medication errors are in place.
Coordination with areas such as Facilities Management, however, needs to be refined for the
mitigation of “acute” issues. For example, the inspection team witnessed one fall that was due to
limited wheelchair maneuverability in a common gathering area. Prevention of a similar event
would benefit from more inclusive PI coordination among other departments outside of
Healthcare Services. A review of PI minutes revealed little discussion of important issues such
as the planned AFRH (W) facility projects, transfer of residents to Gulfport, and potential closure
of WRAMC.

Recommendation:

I-5: AFRH (W) should establish a formal process for ensuring communication and coordination
among activities across the Healthcare and Administrative services to ensure that required
actions on risk management, incident reporting, and wheelchair movement accessibility are
addressed.

Wellness/Health Promotions/Risk Management

AFRH (W) residents are afforded adequate health promotion education along with appropriate
interventions for tobacco use and alcohol abuse. A psychiatrist evaluates residents with evidence
of depression or behavioral management issues. Initial assessments also include a
comprehensive chronic disease index evaluation and nutritional review. In addition, the “Vitality
Plan” covers all aspects of periodic health maintenance including colorectal and gender-specific
cancer screening, vaccinations and substance abuse assessment. Documented minutes and
processes indicate evidence of acceptable compliance for immunization programs (influenza and
pneumococcal pneumonia).

Tobacco Cessation activity includes semi-annual educational efforts through WRAMC. AFRH
encourages residents to voluntary enroll in a support course along with the initiation and

                                                43 

                                                         Inspection of the Armed Forces Retirement Home
                                                             February 25, 2010 Report No. IE-2010-002


management of adjunctive medication regimens. Ongoing support and treatment are tailored to
individual needs. Some success was claimed with these efforts, although substantiating data was
not readily available. The AL and LTC smokers (and demented residents) are presently taken to
a designated smoking area to ensure that fire safety precautions are maintained. Efforts to
restrict smoking in this Federal facility are met with some resistance from those veterans
addicted psychologically and physiologically to smoking.

Residents are discouraged from using alcohol in their rooms. A review of incident reports
regarding falls and injuries of residents indicated no trend or association with alcohol-related
events.

For Nutrition Services, the inspection team received mixed feedback from residents and staff
regarding food quality. Upon review, it was determined that Nutrition Services showed positive
progress since the 2005 inspection. The improvements are attributed to detailed resident health
assessments by the dietician (assessments include nutrition screening, intervention and
education), surveys, and outstanding documentation of performance improvement measures.
Inspector observation revealed that food service and management provided wholesome and
nutritious products.

Residents with known diabetes are assigned to a nurse case manager and the dietician. Chart and
record reviews reveal good documentation of quarterly glycohemoglobin and microalbumin
determinations, annual retinal and podiatry exams, and semi-annual lipid profiles. Resident
menus are well-balanced and reflect resident preferences. Inspectors deemed that established
protocols in dining facility operations are made in the best dietary interests of the residents.
Meal preparation is well planned. A software program (“Compnutrition”) is used to determine
and stabilize food purchases, assess use and waste, and provide caloric calculations. Dietary
awareness is emphasized through forums, Town Hall meetings, television and paper
advertisements or word-of-mouth.

Public Health/Industrial Hygiene/Safety

AFRH (W) offers a full spectrum of employee Occupational Health programs that meet
standards. External services along with surveillance measures are coordinated through local
medical facilities and agencies. Staff /worker pre-placement exams, audiometry, spirometry, and
medical surveillance evaluation services take place at expected intervals. Employee training
programs for hepatitis B vaccination, latex allergy, tuberculosis surveillance and blood-borne
pathogen exposure education are established and compatible with standards promulgated by the
Occupational Safety and Health Administration and recommendations from the Centers for
Disease Control and Prevention. However, minor tracking and documentation deficiencies were
noted.

Public Health and Industrial Hygiene surveillance indicates that food facilities and buildings
showed no problems for hazard mitigation and sanitation issues. Pest control is managed by
local contract and minimized infestation concerns. Required radiographic surveillance and
badge checks for dental x-ray exposures is in place.



                                                 44 

                                                         Inspection of the Armed Forces Retirement Home
                                                             February 25, 2010 Report No. IE-2010-002


The fire evacuation plan process lacked written detail regarding the movement of LTC residents
in case of a wide-spread event. Facility isolation measures regarding potential pandemic disease
outbreak procedures were not addressed, but sparked staff interest when mentioned as a concern
by the IG staff.

Emergency response for resident events within the public area and grounds of AFRH consist of
packed supply bags with basic care materials. The requirement for the staff is Basic Life
Support measures and Heartsaver certification with Automatic Emergency Defibrillator (AED)
use. No advanced care medications are warranted for this level of care since Advanced Cardiac
Life Saver procedures for providers is not mandated by local policy.

Local Board Health Services Issues/Questions

In response to the Inspection Teams’ request, the Chairman of the Local Board submitted nine
questions that she requested to be included in the AFRH evaluation (Appendix C). Those areas
are addressed below.

1. How is medical care tracked between medical facilities? Example: care provided by an Army
medical facility and the AFRH medical staff?

AFRH sends complete information packages with the patient during the initial transfer. The
packages include consult requests, medications, advanced directives, etc. The family is also
notified. There is a newly established policy in which the Medical Center calls AFRH and sends
a discharge summary upon discharge. For returns and placement, the medical staff routinely sees
all admitted residents who stay as inpatients to a local facility for more than a few days. A needs
assessment is established if the resident’s status changes for stages of care back at the retirement
home. The doctors review orders on all resident return packages. It was noted however that
some records did not have scheduled needs assessments charted as per local policy.

2. How are discharge planning and follow-up care coordinated between discharging hospital
and AFRH?

As above; each patient is returned with all information regarding care and treatment. A report is
given by the receiving nurse once the resident is back on the ward.

3. What measures are in place and/or databases utilized to ensure continuity of care for AFRH
residents?

Hand written notes are still being used by all staff. Electronic medical records processes are not
yet in place. The Composite Healthcare Computer System (CHCS) is being used for labs.
Routine labs are flagged and returned to the providers. Routine rounds are conducted daily on
inpatients.




                                                45 

                                                        Inspection of the Armed Forces Retirement Home
                                                            February 25, 2010 Report No. IE-2010-002


4. What control measures are in place to ensure the 5 “R”s are followed for medication
procedures? RIGHT – Patient, Time, Dose, Medication, Route?

The new medication distribution system, the “Millennium Pharmacy System”, has been in place
for the last six months. It ensures the quality administration of inpatient medications. Narcotics
are controlled in double locked containers.

5. What quality control measures are in place to ensure custodial services and maintenance is
accomplished to the appropriate standard?

Contract custodial and maintenance services are monitored through Contracting Officer
Representatives who engage in ongoing contract activities and monitor contract services for
compliance with the statement of work. The Chief of Campus Operations has overall
responsibility for custodial and maintenance contract fulfillment. Tabs C (Facilities) and G
(Contacting) provide additional background and detail in describing the quality control measures
in place.

6. Is the AFRH in compliance with the established baseline standards in accordance with Public
Law 110-181, AFRH Act of 1991, Section 1518?

Yes. The DOD IG inspected AFRH in a year in which the home was not inspected by a civilian
accrediting organization. All aspects of the facility were inspected to include independent living,
assisted living, medical and dental care, pharmacy, financial and contracting records. Medical
Inspector General assistance was provided by the Air Force through the Air Force Inspection
Agency. Concerns, observations, and recommendations were solicited from the Local Board, the
Resident Advisory Committee and the residents of the facility. The Chief Operating Official and
the Director of AFRH (W) made all staff, other personnel, and records available in a timely
manner. A report with recommendations has been prepared describing the results of the
inspection not later than 45 days after completion of the inspection. The report has been
provided to the designated parties. It is noted that the Director, AFRH (W) has 45 days to submit
a plan to address the recommendations and other matters set forth in the report.

7. What procedures are in place to monitor allergies to medications?

In-processing assessment protocols monitor medication allergies (also food). However, the
inspection team observed that proper notification labels of allergies were missing on several
residents’ charts as required.

8. What ADLs (Activities of Daily Living) are in place to ensure residents receive proper care?

A variety of morale and physical events are available to allow residents as much independence as
is appropriate for their individual health status. Good dietary processes and follow up are in
place for weight management. There is regular monitoring of LTC and AL residents with
location watches.




                                                46 

                                                        Inspection of the Armed Forces Retirement Home
                                                            February 25, 2010 Report No. IE-2010-002


9. What guidelines are used to transfer residents to a different level of care? What is the
process?

A new draft policy exits that requires review by the medical staff prior to implementation. There
was no documented evidence that the Medical Executive Committee have discussed or reviewed
the proposed policy.




                                                47 

                                                         Inspection of the Armed Forces Retirement Home
                                                             February 25, 2010 Report No. IE-2010-002




Tab J – Disposition of Effects
Overall Assessment

This portion of the inspection examined compliance with procedures for disposing of the effects
of deceased persons as provided for in section 420, title 24, United States Code (24 U.S.C. § 420
[2006]). Those with assigned responsibilities in the process were well versed in their duties.
Policies and assigned responsibilities for the process were found to be well delineated, compliant
with 24 U.S.C. § 420 (2006), and effective in practice.

Disposition of Effects

The Chief Operating Officer establishes the Agency’s written estate policy and provides broad
oversight of the policy. AFRH Agency Directive 8-8 “AFRH Estate Matters” dated September
2, 2008 is the applicable policy guidance. The policies delineated by the directive are in
compliance with 24 U.S.C. § 420 (2006).

The AFRH (W) Director is broadly responsible for safeguarding and disposing of the estate and
personal effects of deceased residents. The Director exercises his responsibilities through the
Home’s Administrative Officer and Chief Resident Services.

When a resident dies, AFRH safeguards the personal effects until removed by an executor or
legal representative. The point of contact for the estate is established through information
available in the resident computer database. In the case where a point of contact for the estate is
not available, the case is referred to the AFRH (W) Administrative Officer to initiate the
necessary legal proceedings. If a deceased resident’s possessions need to be packed for storage
due to the absence of an emergency contact, an AFRH (W) Social Worker is designated to serve
as Decedent Effects Inventory Manager. In the majority of cases property is promptly removed;
however, in those cases where the property remains unclaimed at the end of three years, AFRH
may retain the property for the facility or dispose of it through sale or donation.

Observation: AFRH (W) performed estate matter duties and responsibilities in a satisfactory
manner and are in compliance with 24 U.S.C. § 420 (2006).

Recommendations: None




                                                48 

                                                         Inspection of the Armed Forces Retirement Home
                                                             February 25, 2010 Report No. IE-2010-002




Tab K – Hotline Activity
Overall Assessment

The inspection team referred to the guidance contained in Department of Defense Instruction,
No. 7050.01, “Defense Hotline Program” dated December 17, 2007, for a comparative review of
the AFRH Hotline program. The AFRH hotline is under the purview of the AFRH Inspector
General (IG). The current AFRH IG has been in place since May 2006 and also serves as the
Chief, Information Technology (primary billet). From May 2006 through August 2009, there
were twenty-one Hotline cases adjudicated. The AFRH IG stated that he found no record of any
Hotline case files before his arrival.

The cases reviewed ranged from allegations of resident mistreatment, to poorly fitted dentures, to
a terminated employee’s request to regain access to the AFRH. Our discussions with the IG
revealed he treated every case with utmost professionalism and with equal attention to detail.

There were several areas for improvement related to file management and content. The areas for
improvement, generally dealt with contents and organization of the individual case files.

There was not a consistent identification of the case files. Some case files did not have an
identifier; others used the identifier from a referral agency such as the DOD IG, and some had a
local identifier. During the course of our review, we recommended a consistent identifier such
as 2010-001, 2010-002, etc, be used, regardless of the original source.

Files lacked standardization with regard to contents of the individual file. Some files were
missing the actual allegation, others lacked a copy of the final response, and others lacked proof
the response was communicated to the complainant. A simple checklist documenting actions
taken, relevant documents, and communications made would better demonstrate the case was
managed completely from start to finish.

It was clear the AFRH IG employed an unbiased approach in every case. It is unusual for an IG
to be “dual-duty” with two executive management functions, as this may lead to unintentional
conflicts of interest. The files reviewed contained no cases dealing with the assigned IG’s
additional Information Technology duties. If Information Technology issues were reported via
the AFRH hotline, the IG stated he would forward them to the DOD Hotline for action.

Observation: The AFRH IG appears to be capable and conscientious in addressing AFRH
hotline complaints and bringing each complaint to resolution.

Recommendations: None




                                                49 

                                                        Inspection of the Armed Forces Retirement Home
                                                            February 25, 2010 Report No. IE-2010-002




Tab L – Voting
Overall Assessment

Due to known congressional interest in voting access for DOD personnel, this review area was
added to the inspection of the AFRH. 15 There are no specific provisions in law or other guidance
that requires AFRH to provide any voting services to residents; however, we found that AFRH
did take an active role in assisting residents who desired to vote. To determine the support the
residents received in obtaining information, absentee ballots, and transportation to polling sites,
we interviewed the senior staff most involved in providing residents voting assistance.

The Ombudsman and Chief of Resident Services clearly developed a close working relationship
to ensure every resident that desired to vote, had the opportunity. Material related to polling
locations and requesting absentee ballets were readily available. Residents requiring physical
assistance in applying for an absentee ballot were aided by appropriate staff, to include social
workers in the Assisted Living and Long-Term Care areas of the home.

The residents of AFRH comprise two overlapping demographics that historically desire to vote:
military and the elderly. As an example, we were told “that the desire to vote was so strong that
residents typically unable to go the polls (for various disabilities), and thereby qualified for
absentee ballots, insisted on getting to the polls in any way possible so they could cast their
ballot in person.” AFRH ensured buses were available and assisted the disabled in getting to
their designated polling place.

During the course of our inspection which included resident interviews and multiple focus
groups, not a single resident voiced a concern with voting. AFRH clearly provided adequate
support to residents in ensuring all who desired to vote were afforded the opportunity to do so.

Observation: It appears that AFRH (W) provided all possible assistance to residents in an effort
to ensure voting poll or absentee ballot access during the last national election.

Recommendations: None




15
  Section 1566, title 10, United States Code (2006), “Voting assistance; compliance assessments;
assistance,” as amended, requires that the Inspectors General of the Army, the Navy, the Air
Force, and the Marine Corps conduct an annual review of the effectiveness of voting assistance
programs; and an annual review of the compliance with voting assistance programs of that
Service.
                                                50 

                                                       Inspection of the Armed Forces Retirement Home
                                                           February 25, 2010 Report No. IE-2010-002




Tab M – Finance

Overall Assessment

AFIA conducted a triennial inspection of the AFRH in 2005. In their report, AFIA noted that
AFRH made significant progress in the financial management area since the previous triennial
inspection. For this inspection, our review included follow-up on findings and recommendations
made by AFIA in the triennial inspection report, and matters required by 24 U.S.C. (2006) and
relevant OMB Circulars. Specifically, we reviewed previously reported issues related to
elements of Presidential Budget Submission for 2008, AFRH Financial Management Plan,
Annual Statement of Assurance, Oversight of Financial Transaction Processing, Government
Purchase Card Program, and golf course maintenance funding.

The AFIA reported that in April 2004, AFRH transferred their accounting functions to the
Department of Treasury Bureau of Public Debt’s Administrative Resource Center (BPD ARC),
which enhanced the Home’s ability to comply with required accounting standards and applicable
laws, to include the use of a Joint Financial Management Improvement Plan certified financial
management system. AFRH continues to maintain a reimbursable services agreement with BPD
ARC. In order to maintain a strong internal control environment BPD ARC recently underwent
a Statement on Auditing Standards No. 70 (SAS 70) audit of its accounting and travel functions,
KPMG LLP, an independent certified public accounting firm under contract with the Department
of Treasury Office of Inspector General. The August 28, 2009 KPMG LLP SAS 70 audit found
that the BPD ARC controls are suitably designed to provide reasonable assurance that the
specified control objectives would be achieved if the described controls were complied with
satisfactorily.

AFIA reported that AFRH lacked audited financial statements for FYs 2003 and 2004.
However, since that time, AFRH has received unqualified Audit Reports from Brown &
Company CPAs, PLLC for FYs 2005-2008. In those reports Brown & Company states that its
audits were conducted in accordance with auditing standards generally accepted in the United
States of America, and the standards applicable to financial audits contained in “Government
Auditing Standards” issued by the Comptroller of the United States and the Office of
Management and Budget (OMB) Bulletin 01-02, “Audit Requirements for Federal Financial
Statements.” In accordance with Government Auditing Standards, Brown & Company also
issued reports on the AFRH’s internal control over financial reporting and on its compliance with
laws and regulations. For each of the four years, Brown & Company reported that they noted no
matters involving the internal control and its operation that would be considered material
weaknesses. They also reported that they noted no instances of noncompliance with laws and
regulations that would have a direct and material effect on the determination of financial
statement amounts.

Presidential Budget Submission

AFIA reported that the AFRH Trust Fund Balance included in the Presidential Budget
Submission for FY 2008 was in error based on incorrect amounts recorded by AFRH on balances

                                               51 

                                                         Inspection of the Armed Forces Retirement Home
                                                             February 25, 2010 Report No. IE-2010-002


preceding FY 2004 and prior to migration to BPD ARC for accounting processing. AFIA
estimated the amount to be corrected would be an $11 million increase in the Trust Fund
Balance. Subsequent to BPD ARC and AFRH reconciling balances with the Office of
Management and Budget (OMB) MAX Information System which is used to produce the
President’s Budget, it was determined the Trust Fund Balance ending FY 2007 should be
increased by $12 million. This adjustment was made in November 2007 for the FY 2009
President’s Budget submission. In the AFRH-BPD ARC Reimbursable Services Agreement
BPD ARC provides calculations for the budget formulation process and perform data entry to
balance the AFRH MAX account.

Financial Management Plan

AFIA reported that AFRH did not submit a five-year financial plan as required by the Chief
Financial Officers (CFO) Act of 1990. AFIA recommended that AFRH submit a five-year
financial plan and revise it annually in accordance with the CFO Act of 1990 and section 419,
title 24, United States Code (24 U.S.C. § 419 [2006]). AFRH is not included in the list of
agencies designated in the Chief Financial Officers Act of 1990, but rather is listed as one of the
Executive Agencies subject to the Requirements of the Accountability of Tax Dollars Act
(ATDA) of 2002. That Act requires ADTA Agencies to submit to the Congress and OMB an
annual audited financial statement, which AFRH included in its Performance and Accountability
Report as required by OMB Circular A-123. Also, AFRH reporting information required by 24
U.S.C. § 419 (2006) is included in the 2009 Federal Financial Management Report submitted by
OMB in accordance with section 3512, title 31, United States Code (31 U.S.C. § 3512 [2006]).
Although not listed as a CFO Agency, AFRH provided the DOD IG inspection team with copies
of Long Term Financial Management Plans prepared in 2007 and 2008, including a trust fund
solvency analysis and financial management plans through FY 2018. The 2009 Financial
Management Plan was being developed at the time of the inspection.

Annual Statement of Assurance

AFIA reported that AFRH did not complete the Annual Statement of Assurance for three years.
OMB Circular A-123, “Management Accountability and Control,” requires that annually,
management must provided assurances on its system of internal control in its Performance and
Accountability Report, including a separate assurance on internal control over financial
reporting, along with a report on identified material weaknesses and corrective actions if
necessary. AFRH has issued the required Annual Statements of Assurance in its Performance
and Accountability Reports for FYs 2005 thru 2008. The reports were provided to OMB and
other appropriate recipients, and posted on the AFRH website. AFRH continues to report that its
internal controls objectives have been achieved with no material weaknesses.

Oversight of Financial Transaction Processing

AFIA reported there was a lack of account reconciliation between AFRH and BPD ARC related
to deposit verification and revenue classification. Also, AFIA reported that AFRH did not
perform a monthly reconciliation between accounts receivable and the general ledger. In its
report, AFIA noted that BPD ARC initiated a requirement for AFRH to furnish a copy of their

                                                52 

                                                       Inspection of the Armed Forces Retirement Home
                                                           February 25, 2010 Report No. IE-2010-002


accounts receivable subsidiary records each month to correct the problem. AFRH provided the
inspection team with a copy of the system procedures which give BPD ARC direct access to
AFRH accounts receivable. Also, AFRH published Business Center Standard Operating
Procedure No. 2-05, establishing monthly or quarterly requirements of the Business Center. The
procedure requires the Business Center to conduct monthly reconciliation between BPD ARC’s
CASHLINK and the business center deposits. An example of the monthly CASHLINK
reconciliation report was provided to the DOD IG inspection team.

AFIA recommended that the CFO establish a tracking system between AFRH and BPD ARC
and reach a consensus on the classification of revenue. In response to this recommendation, the
CFO developed a standardized accounting system, including lines of account, by revenue
classification, which has been coordinated with BPD ARC, who recommended that they be
included in the Financial Management Manual. AFRH is in the process of revising the manual
with changes estimated to be completed by November 2009.

The AFIA reported that AFRH had not established an effective accounting mechanism for
Resident’s Funds. The Resident Fund is a non-appropriated fund established to support a variety
of projects and activities designed to enhance the morale, welfare, comfort, entertainment,
pleasure, contentment, and general well-being of the residents. Funds can only be derived from
non-appropriated income sources such as commissions on retail vending sales, operation of on-
site concessions, etc. AFRH transferred accounting functions for the Residents Fund to the Navy
Morale, Welfare, and Recreation (MWR) Division in Millington, T.N. AFIA reported that it was
not clear what duties Millington was to perform for AFRH because there was no formal
agreement between AFRH and the Navy MWR. Furthermore, AFRH did not establish
procedures to review Resident Fund financial data. AFIA recommended that AFRH develop a
formal agreement with the Navy MWR accounting office, and establish procedures for
monitoring work performed by Millington. As a result, AFRH now enters into an annual
Memorandum of Agreement with the Navy MWR establishing the fee to be paid by AFRH and
the work to be performed by the Navy MWR. Also, AFRH published Business Center Standard
Operating Procedure No. 2-05, establishing monthly or quarterly requirements of the Business
Center. The procedure governing MWR, requires the Business Center to conduct monthly audits
of the non-appropriated fund, and reconcile the Millington monthly report with its record of
deposits.

Government Purchase Card Program

AFIA reported that AFRH lacked adequate oversight of the purchase card program. AFRH
cardholders did not keep a purchase log to aid in the reconciliation process. Also, cardholders
were allowed to make purchases without completing the required on-line cardholder training
course documented by training certificates. AFIA recommended that AFRH clearly
communicate Program Coordinator duties, provide cardholder training, ensure purchase logs are
completed; and surveillance is conducted in accordance with applicable directives. Also, AFIA
recommended that AFRH establish local guidance to provide thresholds for agency specific
purchases.




                                              53 

                                                       Inspection of the Armed Forces Retirement Home
                                                           February 25, 2010 Report No. IE-2010-002


AFRH issued AFRH AGENCY NOTICE 09-04 publishing the AFRH Financial Management
Manual, September 10, 2009. The Manual establishes policies, procedures, and reporting
requirements pertaining to the AFRH Financial Management Program. The Manual includes an
extensive section on the Purchase Card Program assigning responsibilities and providing
guidelines and policies for administration of the Purchase Card Program. It establishes purchase
thresholds for different types of purchases. The Program requires Approving Officials and
Cardholders complete BPD on-line purchase card training and completing a certificate of
training, and signing a statement certifying that they have read AFRH Purchase Card Procedures.
The statement becomes available during the training.

Agency Program Coordinators serve as the liaison between the cardholder, Approving Official,
and Agency Coordinator on purchase card issues, and ensures the office or organizational unit is
complying with purchase card policies and procedures. Detailed procedure were established for
cardholders, including the requirement to keep a purchase card log to aid in the reconciliation
process; reconcile and submit the e-statement within five working days after the close of the
monthly cycle; forward a copy of the e-statement with receipts and supporting documentation for
review and retention; and check the reconciliation box to communicate to the Approving Official
that the e-statement has been reconciled. The Approving Official has been assigned multiple
responsibilities, including ultimate responsibility for proper and correct administration of the
program within his/her office; primary responsibility for audit and surveillance of cardholder
actions; and responsibility for verifying, certifying, and submitting the monthly statement after
the cardholder reconciles it.

Golf Course Maintenance Funding

AFIA questioned AFRH classifying the golf course as a Category B Morale, Welfare and
Recreation facility and the policy to pay for golf course grounds repair and maintenance with
appropriated funds. AFIA recommended that the AFRH obtain a legal review of this decision.
The AFRH requested a legal review by the Department of the Air Force. The legal opinion
concluded that the AFRH is not in violation of DOD regulations because AFRH does not operate
with appropriated funds, and DOD regulations that prohibit the use of appropriated funds for
non-appropriated fund activities do not apply. The legal opinion further stated that AFRH may
use monies distributed from the Trust Fund to operate the golf course pursuant to its charter
obligation of maintaining the facility for the welfare of the residents.

Observation: Overall, we found that AFRH has taken necessary corrective actions on all findings
and recommendations in the 2005 AFIA Triennial Inspection report.

Recommendations: None




                                               54 

                                                         Inspection of the Armed Forces Retirement Home
                                                             February 25, 2010 Report No. IE-2010-002




Tab N – Focus Group and Individual Interview Synopsis
We conducted Focus Groups (Sensing Sessions) consisting of residents and staff members prior
to the on-site inspection phase. During the period of August 3-11, 2009, we conducted 10
Resident Focus Groups and 7 Staff Focus Groups. In total, 54 staff members and 68 residents
participated in the Focus Groups. During the on-site phase of the inspection, we also made
available DOD Inspector General personnel to provide “walk-in” individual consultations for
residents and staff. During these consultations, we spoke with an additional 46 residents. No
staff availed themselves of individual consultations. The purpose of the Focus Groups and
individual interviews were to gain a sense of resident perceptions related to their quality of life
and staff perception relative to their quality of work place.

       Relevance: Focus Group sessions and individual consultations were not designed
       to capture a statically relevant set of observations and comments. The source and
       total number of staff and residents contacted during Focus Groups and individual
       consultations does not represent a statistically relevant sampling of each
       population. Resident Focus Groups were comprised of all volunteer participants.
       Staff participants were directed to participate as part of their work day. Most
       residents participated because they had a specific issue they wished to discuss.
       AFRH staff personnel routinely arrived at the Focus Groups without specific
       knowledge of why they were asked to attend or the purpose of the discussions
       desired. As such, staff comments reflected perceptions and impromptu responses
       to discussion topics offered by Focus Group facilitators in an effort to initiate a
       dialogue.

Residents

During the Focus Groups and individual interviews, we directly interacted with a total of 114
residents (68 via Focus Group/46 via individual consultations). Overall, we found that the
residents were happy to be affiliated with AFRH and described it as a great place to live.
Although several topics of concern emerged, there was not complete consensus among the
residents as to the significance of issues.

Resident Issues

a. Lack of Communication. A portion of the residents complained that there was a lack of
efficient communication from the management. However, a similar number of residents stated
that they were satisfied with the level of communication provided by the management. These
residents also asserted that management’s communication was everywhere and that complaining
residents just did not avail themselves of communications promulgated. The inspection team
attended one “town hall” meeting held by management to discuss the future move to return
AFRH Gulfport residents to Gulfport upon completion of re-construction. The team noted that
approximately 50 residents attended, although the potential resident population affected by the
forthcoming move is over 150. We also noted that the “town hall” presentation was video taped
for recurring replay on the AFRH closed circuit television channel.

                                                 55 

                                                          Inspection of the Armed Forces Retirement Home
                                                              February 25, 2010 Report No. IE-2010-002




b. Declining quality of food and quality of preparation. Many residents complained about
declining quality of food and the quality of food preparation. However, several residents stated
they were happy with the food. The IG Medical Inspector noted recent changes in the dietary
regimen and menus due to revisions implemented by the AFRH dietitian/nutritionist. The IG
Medical Inspector found the nutrition plan sound. Many members of the inspection team dined
in the AFRH cafeteria several times for lunch over the course of the inspection and inspection
preparation. A consensus of inspection team members who dined in the AFRH cafeteria is that
the “hot line” food (both diet line and regular line) is satisfactory in presentation and taste. Most
inspection team members eventually opted for the speed line of hamburgers and hot dogs for
lunch.

c. Lack of sponsored weekend recreational activities/tours. Many residents noted a lack of
weekend off-site recreational activities. Resident opinions indicated there were very few
organized recreational activities available on the weekends.

d. Declining military orientation/esprit de corps within AFRH. Many residents voiced concern
related to a lack of uniformed military presence within the management of AFRH and indicated a
corresponding decline in the military orientation and esprit de corps within the home. We did
not note any resident opinions that were contrary to this concern, but we did note that many
residents were apathetic to the issue. The IG team did observe that as we entered the campus and
toured the facilities of AFRH we did not have an overwhelming sense of being in a military-
oriented facility. There are many military-oriented pictures and statues throughout the campus;
however, there was not a sense of military based orientation or protocol.

e. Diminished on-site medical services. Several long-term residents complained about
diminished availability of medical services at the AFRH (W) facility. Complaints were voiced
related to residents having to travel to Walter Reed Army Medical Center or the Veterans
Administration Hospital to receive services previously provided on-site at AFRH (W).

f. Finance – $0.50 to $1.00 Active Duty pay withholding. Most residents are aware that
legislation authorizes an increase in Active Duty enlisted member withholding from $0.50 up to
$1.00. Residents with complaints about services provided usually referenced this authority to
improve the service area of concern, e.g., additional funds could be used to improve perceived
food quality and declining services.

Inspectors Sense of Resident Quality of Life

The residents of the AFRH home are generally satisfied and happy to be affiliated the ARFH.
The ARFH population encompasses several generations of residents. Some resident who have
lived at AFRH (W) for many years have seen many changes in management and strategic focus
occur over the last few years. Those residents who have been affected by changes are most vocal
as to the adverse ramifications of those changes. Newer residents for whom the standard
operating procedures are as they were upon their arrival generally had fewer complaints. It is
clear that the residents of AFRH are proud of their military heritage and their bond as veterans.
One resident stated that residents of AFRH should be referred to as “members” instead of

                                                 56 

                                                          Inspection of the Armed Forces Retirement Home
                                                              February 25, 2010 Report No. IE-2010-002


residents. Every resident we spoke with was proud of their respective service and even those
with complaints and recommendations were very happy to be living at AFRH and offered
numerous positive comments about the home, e.g., “I can’t think of anywhere I would rather be.”

Staff

During Staff Focus Groups we interacted with 54 AFRH personnel. Generally, all staff
personnel who offered opinions were happy to be affiliated with the AFRH. Staff participants
indicated a wide range of time in AFRH employment ranging from 6 months to over 20 years.
Those with longer service noted that they had seen significant change over the last several years
with regard to staffing and on-site services provided to the residents, although those comments
were not qualified as either good or bad from a staff perspective. There were several areas of
concerns for which there seemed to be consensus of opinion from staff participants:

Staff Issues

a. Lack of communication from top and mid-level management to individual employees. Junior
staff stated they received little routine communication related to issues affecting staff, residents,
or AFRH in general.

b. Ineffective Appraisal System/Utilization: Staff noted that the appraisal system was
ineffective, most stating they had not received mid-year counseling or end of performance cycle
appraisals. Note: this was voiced more from junior staff personnel than from mid or senior level
staff personnel.

c. Apprehension of adverse consequences resulting from communicating issues of concern from
junior staff to senior staff. Junior personnel expressed they did not feel at liberty to voice issues
of concern within their management structure.

d. Many junior employees indicated that they were not sure of AFRH “Chain of Command.”

e. Nursing Assistant staff viewed their staffing levels as inadequate (especially when absences
occur).

Staff Motivators Desired

a. Opportunity for career advancement within AFRH (W).

b. Educational monetary assistance to support career advancement.

Inspectors Sense of Staff Quality of Work Place

The staff is generally happy with their work place. There is apprehension throughout junior staff
resulting from reported changes in resident care philosophy which resulted in the migration of
many previous on-site resident medical services to other agencies such as WRAMC or VAMC.
Staff personnel stated that as services migrated, staff (especially medical) positions at AFRH

                                                 57 

                                                          Inspection of the Armed Forces Retirement Home
                                                              February 25, 2010 Report No. IE-2010-002


diminished. Also noted by staff participants was a significant change in AFRH (W) medical
leadership over the last few years. Our sense is that the staff (especially junior medical staff)
does not have a clear picture of the AFRH strategic plan and do not understand their specific
roles in that plan. As such, the junior staff only sees diminished billets and are left to their own
imagination as to rationale and “who may be next.”

Use of Focus Group/Individual Interview Observations

We incorporated our observations from Focus Groups and individual interview observations
within the scope and focus of our on-site inspection review process. Additionally, we discussed
our observations with AFRH management during the on-site inspection phase out-brief that
occurred September 18, 2009, and provided a written synopsis of our observations to the
AFRH (W) Ombudsman for review.




                                                 58 

                            Inspection of the Armed Forces Retirement Home
                                February 25, 2010 Report No. IE-2010-002




Appendix A. Inspection Announcement Letter




                     59 

       Inspection of the Armed Forces Retirement Home
           February 25, 2010 Report No. IE-2010-002




60 

                             Inspection of the Armed Forces Retirement Home
                                 February 25, 2010 Report No. IE-2010-002




Appendix B. Department of Defense Inspector
 General/Air Force Inspection Agency
 Memorandum of Understanding




                      61 

       Inspection of the Armed Forces Retirement Home
           February 25, 2010 Report No. IE-2010-002




62 

       Inspection of the Armed Forces Retirement Home
           February 25, 2010 Report No. IE-2010-002




63 

       Inspection of the Armed Forces Retirement Home
           February 25, 2010 Report No. IE-2010-002




64 

       Inspection of the Armed Forces Retirement Home
           February 25, 2010 Report No. IE-2010-002




66 

                                                          Inspection of the Armed Forces Retirement Home
                                                              February 25, 2010 Report No. IE-2010-002




Appendix D. Resident (Recreation) Services
The following narratives describe AFRH-W Recreation Services activities and programs:

Scott Library: The library is daily from 8:00 am – 4:30 pm including weekends and holidays. There
are 15 volunteers that work in the library, in addition to the librarian who has been there since July
2008. Residents of the Home, their guests, AFRH non-resident employees residing on the Home
grounds and AFRH civilian employees are eligible to borrow library materials. The library was
clean, well organized and well-stocked with a variety of books (fiction and non-fiction), a large
selection of DVD’s, resource materials and equipment that included three computers, a typewriter,
and a desk top magnification reader. It also contained a large selection of military history books and
large-print books. The library is two-storied with a side access door for handicap use. The library
rotates books with the D.C. Public Library. The future plans are to go on-line with a check-out
system for obtaining books and other materials. It should be up and running in the fall of 2009. To
check out materials, an authorized individual must have an AFRH (W) ID badge. The application
process takes approximately 30 seconds to do and a bar code number is affixed to the ID badge.

The reading room (Fish Tank Room) is located in the front of the Library. It is open 24 hours and
year-round. It provides a quiet and cozy setting and is open to everyone at the Home. Checkout of
books and other materials is accomplished using the honor system with no problem. The reading
room has a good selection of periodicals, books and VHS/Movies. Residents can bring in their own
periodicals and display them for everyone’s use. The Computer Activity area consists of four
computers and a printer. The computers are authorized for the purposes of email, writing letters and
printing only.

Music Room: The music room is located next door to the Library. It operates under the same
guidelines as the library as far as hours of operation and authorized users. However, special
programs often have varied hours. The key to this room is maintained in the library. There is a sign
up sheet at the door upon entering the room. Monthly sing-a-longs are held on the last Tuesday of
the month. The Music Room is set up primarily for the residents use as a leisure time activity to
enrich their lives through music. It is well stocked with a variety of music material such as CDs,
records and musical cassettes. The material in the room can be borrowed and returned on the honor
system.

Computer Lab: The Computer Lab is located in the Sheridan Building and is used for structured
classes taught by instructors only. The Computer Lab is open during specific times when classes are
being conducted by staff or volunteers. Otherwise this room is kept locked to avoid any mishaps
with the computers. There are 10 computers in the room with printers. There is one open lab on
Tuesday’s with one-on-on instructions. The room was clean, well organized and properly ventilated.
Patrons are responsible for abiding by the policies, rules and guidelines posed in the computer
rooms/lab. A Game Room: is located on the other side of the Computer Lab. The Game Room is
open 24 hours a day seven days a week. There are six computers in the room with no internet
service. It is used strictly for computer games.




                                                 67 

                                                           Inspection of the Armed Forces Retirement Home
                                                               February 25, 2010 Report No. IE-2010-002


Ceramics Studio: The Ceramics Studio is managed by a full-time Art Specialist and several
resident volunteers. The shop was clean, spacious, properly ventilated and well equipped.
Residents with on-going projects had 24-hour access to the Shop on an as needed basis.

Wood-Hobby Shop: The Wood Hobby Shop is managed by four resident volunteers. The volunteers
perform all of the wood cutting services as well as instruction and assistance to customers as
requested. The Wood Shop was well maintained, properly ventilated and had an adequate selection
of tools, machinery, instructional material, and supplies.

Pinochle/Card Room: The Pinochle/Card Room is located in the Scott Building and is open 24 hours
a day. The card rooms are made available to AFRH residents for recreational use. Only the
Residents of the Home are allowed to use the Pinochle/Card Room.

Scott Sports Lounge: The Scott Bar Lounge is located in the Scott Building and has been operated
by the Army and Air Force Exchange Service (AAFES) for over 23 years. Two years ago food
service was discontinued because the food operation was losing money. The bar area is open from 5
pm – 10 pm daily. In the evening, the lounge has a low turn out of perhaps 8 to 10 residents. The
lounge is used about 5 to 8 times per week for special events such as bingo, swing dances, band
performances, card games, volunteer groups, focus groups, RAC meeting, and Residents reserve
the area for any special event they would like to sponsor. AFRH (W) intends to have a
Lounge/Bar area in the new Scott building. They have had a lot of discussion on who they will
manage the Lounge and they have as of yet to put a final plan in place. The Chief of Resident
Services said that it would most likely be run by AAFES with the hope they would provide some
sort of food offering. The Home would operate it during the same hours as they do now and use
it during the day for various events.

Fitness/Wellness Center: The Fitness Center is open 24 hours a day, seven days a week. The facility
is managed by a Recreation Assistant Fitness Specialist and resident volunteers. The facility has
state of the art equipment geared toward the aging population. It includes cardiovascular and
strength- training equipment to meet the many needs of the Resident. The facility is clean and well
maintained with 24-hour security monitoring. Residents exercise “Germ Free” practices ensuring
that the equipment is wiped down after each use. There were also anti-bacteria wall mounted
dispensers throughout the facility. The facility is in the process of installing non-skid strips in the
shower area. There have been no incidents of accident due to not having them but they are being
installed as an additional precaution. Each locker room has a sauna that is locked and carefully
monitored to ensure resident safety.

Fitness Center Locker Operation and Distribution: All lockers are issued from the Sheridan Fitness
Center. Residents and non-resident employees may be issued lockers on a monthly and daily basis.
There is no fee for this service. The issue of lockers is updated monthly.

Bowling Center: The Bowling Center is open Monday-Sunday 1:00-5:00 pm and has six lanes. The
resident volunteers manage the Bowling Center which is going very well. The facility is clean and
well maintained. The Bowling Center averages 300 bowlers a month and it is free. On occasion the
Bowling Center sponsors activities from the outside of the Home for the Residents. The Bowling
Center is currently in the process of obtaining a new scoring system.



                                                  68 

                                                         Inspection of the Armed Forces Retirement Home
                                                             February 25, 2010 Report No. IE-2010-002


Auto Hobby Shop: The Auto Hobby Shop is located a few minutes away by car from the Scott and
Sheridan Building. The Auto Hobby Shop is open Monday – Friday depending on the availability of
the 4 volunteers that manage the shop. The Auto Hobby Shop is set up primarily for residents use as
a leisure time and/or therapeutic opportunity to enrich their lives with automotive skills. However,
AFRH (W) employees and their dependents residing on the home grounds are eligible to use the
facility. The Auto Hobby Shop has eight bays and is primarily used for oil change and car wash
only. The facility was clean and well organized. There were caution signs posted on the walls
requiring safety glasses and safety standards are enforced. There was eye protection along with two
eye washers in the shop. The parts washer tank is emptied monthly because it contains chemicals.
The oil drums located outside of the shop are picked up and emptied quarterly or as needed. There
were several antique cars in the shop that belonged to one of the residents. He is working on them
for an upcoming antique care show.

Golf Course: The Golf Course is open year round and opens at 7:00 am and closes at dusk,
weather permitting. The Golf Course includes a nine-hole course, driving range and putting
green. The Golf Course is primarily for the use of residents and their guest, although other users
are authorized, such as members of the community (Associate Members) who are extended
facility privileges based on course capacity, and charged dues as a means of generating funds to
defray operating costs. There are approximately 300 Associate Members that are registered to
use the Golf Course. The Golf Course Annual Associate dues & fees for 2009 are $550.00. The
weekday and weekend guest fees are between $12 (9-holes) to $25 (18-holes). The Grounds
appeared to be well maintained. Resident golfers of the Home have priority at all times on the
golf course, range, and with the use of power golf carts. This issue was mentioned during
several of our focus groups. However, rules and regulations of the Home to include priority of
Residents are provided to all Associate Golf Members. In addition, each golfer must sign in
before playing on the Course. Safety measures are taken to ensure that all members are
accounted for at the end of the day.

Fishing Pond: The Fishing Pond was closed at the time of the on-site inspection due to repair.
A catch and release rule will be in place once it reopens. The U.S. Coast Guards adopted the
Fishing Pond in 2008 as one of their projects. The U.S. Coast Guard repaired the railings
surrounding the pond, including building a bridge and steps. Recreational Services provided the
lumber for this project and Campus Operations does the maintenance. Some fishing poles are
available for use, but most residents have their own fishing gear.

Resident Garden Plots: Fourteen gardeners manage 23 plots which is down from previous years
due to the age of the residents. The Recreation Assistant (fitness specialist) ensures the garden
plots are being maintained. At the beginning of the spring season the area is plowed and the
areas are measured for distribution. Once this is done the Resident takes over. The gardens are
normally maintained until the first frost. The area is much smaller now due to the reduced
number of Residents that garden. Safety measures are taken to prevent West Nile Disease by
ensuring there is no standing water in the area. There are a number of events that take place
during the year that reward the Residents for having a nice garden. Several storage places
stocked with wheel barrels, tomato stakes and water hoses were available for the residents.
There is campus phone and a restroom that is within close proximity of the garden plots.



                                                 69 

                                                       Inspection of the Armed Forces Retirement Home
                                                           February 25, 2010 Report No. IE-2010-002


Bicycle/Tricycle Program: The Bicycle/Tricycle shop is located at the Auto Hobby Shop. A
Resident volunteer manages this program. A card system is used for daily and monthly rental.
Bikes are parked in front of the Sheridan and Scott Building so residents can use them if
interested.

Guest Room Accommodations: There are 18 rooms in the Scott Building that have been
converted to regular rooms. The rooms include private shower and refrigerator and phone.
Seventy five percent of the rooms are occupied on a daily basis. The cost is $30.00 for double
and $25.00 for a single. A guest can only stay up to five days in the room. Active duty and
retirees are allowed to stay, but resident’s relatives take priority.

Thrift Shop: The Thrift shop is located in the Sheridan building. The Thrift shop is a resource
allowing patrons to sell and purchase items. Revenue is generated for the seller and for the
AFRH Resident’s Fund through property donations. The Thrift shop is open for business from
8:30 am to 11:30 pm hours Monday, Wednesday, and Friday, and 1:00 pm to 4:00 pm on
Thursday. The Thrift shop is managed by Resident volunteers. The Resident Advisory Counsel
(RAC) manages resident’s consignments and the recreation director manages donations of
deceased member’s items. The resident is notified once their item is sold and provided with the
money. This process runs smoothly.

Wrapping Room: The Wrapping Room is located in the Sheridan Building. The wrapping room
is open Monday-Friday, 8:00-10:00 am. The wrapping room is set up primarily for wrapping
packages and to obtain wrapping materials and supplies. A Resident volunteer maintains the
daily usage of the room. The supplies in this room are paid by Non-appropriated Funds (NAF).

Volunteer Services Program: The Volunteer Services Program is made up of Residents and
Community Volunteers. Some of the resident volunteers receive stipends (pay), but most do not.
The AFRH Volunteer Stipend Program pays $120.00 per month for 12 hours of work per month.
A resident cannot get extra pay for working more than 12 hours per month although many work
additional hours. The stipend program has been in existence for 3-4 years. Community groups
also volunteer at the Home to include a large number of active duty members. The number of
times that the various groups visit the Home varies.

Recreation Therapy/Multi-Purpose Room: Recreational Therapy is held on the main floor in the
LaGarde Building. Therapeutic recreation programs are designed to address specific needs,
psychosocial, cognitive, physical or emotional. Activities are geared towards meeting the needs
of patients as well as the recreation needs of other patients. Some of the activities include
sedentary activities, active games, social, group entertainment and outdoor activities to name a
few. The Residents are provided a monthly schedule of trips and activities.

Museum: The Museum was closed at the time of the onsite inspection. The Chief of Resident
Services stated that many years ago the Museum was transferred to the Library for management.
It was only open two days a week and the Home had Resident volunteers that would attend
during opening hours. However, the Museum only had about one person visit per week, so the
Resident volunteers did not feel productively engaged. As a result, AFRH (W) decided to close
the Museum based on lack of interest on the part of the residents. The Resident Advisory


                                               70 

                                                      Inspection of the Armed Forces Retirement Home
                                                          February 25, 2010 Report No. IE-2010-002


Counsel (RAC) was approached to determine if they would be interested in operating the
museum, however, the RAC showed no interest.

The Chief of Resident Services further stated that the museum is very small and has only a few
items of interest. He said that the Home had a professional company come in and inventory all
items with historical significance in the museum as well as throughout the installation. The
Home intends to open a Hall of Honor, in the new Scott project in the new Commons building
that will house most of their historical items. The Hall of Honor is envisioned as a museum
setting and will be accessible 24 hours a day.

Recreation Trips: Resident’s surveys and town hall meetings are used to determine the types of
trips to schedule. AFRH (W) is also on various mailing lists to include the Pentagon Morale,
Welfare and Recreation (MWR) association. On some occasions tickets are donated to the
home, in which case the resident must provide their own transportation.




                                              71 

                        Inspection of the Armed Forces Retirement Home
                            February 25, 2010 Report No. IE-2010-002




This page intentionally left blank.
                           Inspection of the Armed Forces Retirement Home
                               February 25, 2010 Report No. IE-2010-002




Appendix E. OUSD (P&R) Management
Comments




                    73 

       Inspection of the Armed Forces Retirement Home
           February 25, 2010 Report No. IE-2010-002




74 

       Inspection of the Armed Forces Retirement Home
           February 25, 2010 Report No. IE-2010-002




75 

       Inspection of the Armed Forces Retirement Home
           February 25, 2010 Report No. IE-2010-002




76 

                           Inspection of the Armed Forces Retirement Home
                               February 25, 2010 Report No. IE-2010-002




Appendix F. AFRH Management Comments





                    77 

      Inspection of the Armed Forces Retirement Home
          February 25, 2010 Report No. IE-2010-002
78

      Inspection of the Armed Forces Retirement Home
          February 25, 2010 Report No. IE-2010-002
79

      Inspection of the Armed Forces Retirement Home
          February 25, 2010 Report No. IE-2010-002
80

      Inspection of the Armed Forces Retirement Home
          February 25, 2010 Report No. IE-2010-002
81

      Inspection of the Armed Forces Retirement Home
          February 25, 2010 Report No. IE-2010-002
82

      Inspection of the Armed Forces Retirement Home
          February 25, 2010 Report No. IE-2010-002
83

      Inspection of the Armed Forces Retirement Home
          February 25, 2010 Report No. IE-2010-002
84

      Inspection of the Armed Forces Retirement Home
          February 25, 2010 Report No. IE-2010-002
85

      Inspection of the Armed Forces Retirement Home
          February 25, 2010 Report No. IE-2010-002
86

      Inspection of the Armed Forces Retirement Home
          February 25, 2010 Report No. IE-2010-002
87

      Inspection of the Armed Forces Retirement Home
          February 25, 2010 Report No. IE-2010-002
88

      Inspection of the Armed Forces Retirement Home
          February 25, 2010 Report No. IE-2010-002
89

      Inspection of the Armed Forces Retirement Home
          February 25, 2010 Report No. IE-2010-002
90

                                                           Inspection of the Armed Forces Retirement Home
                                                               February 25, 2010 Report No. IE-2010-002




Appendix G. Acronyms
The following is a list of acronyms used in this report:

Acronyms                 Descriptions
AFIA                     Air Force Inspection Agency
AFRH                     Armed Forces Retirement Home
AFRH (W)                 Armed Forces Retirement Home, Washington DC
AFRH (G)                 Armed Forces Retirement Home, Gulfport
AAFES                    Army and Air Force Exchange Service
AL                       Assisted Living
AED                      Automatic Emergency Defibrillator
BPD                      Bureau of Public Debt
C&A                      Certification and Accreditation
CNP                      Certified Nurse Practitioners
CHCO                     Chief Human Capital Officer
CIO                      Chief Information Officer
CARF                     Commission of Accreditation of Rehabilitation Facilities
CHCS                     Composite Healthcare Computer System
COR                      Contracting Officer Representatives
COTR                      Contracting Officer Technical Representatives
CPS                       Contractor Performance System
DOD IG                    Department of Defense Office of the Inspector General
DTAR                      Department of Treasury Acquisition Regulation
DHS                       Department of Homeland Security
EEO                       Equal Employment & Opportunity
FAR                       Federal Acquisition Regulation
FLETC                     Federal Law Enforcement Training Center
FPS                      Federal Protective Service
HRLA                      Health Regulation and Licensing Administration
HSPD                      Homeland Security Presidential Security Directive
IG                        Inspector General
SMA                        Senior Medical Advisor
U.S.C.                    United States Code




                                                91 

                        Inspection of the Armed Forces Retirement Home
                            February 25, 2010 Report No. IE-2010-002




This page intentionally left blank.
                                                       Inspection of the Armed Forces Retirement Home
                                                           February 25, 2010 Report No. IE-2010-002




Appendix H. Distribution
Office of the Secretary of Defense
Under Secretary of Defense (Personnel and Readiness)
Assistant Secretary of Defense (Health Affairs)
Assistant Secretary of Defense (Public Affairs)

Department of the Army
Department of the Army Inspector General

Department of the Navy
Naval Inspector General

Department of the Air Force
Inspector General, Department of the Air Force
Air Force Inspection Agency

Congressional Committees and Subcommittees, Chairman
and Ranking Minority Member
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform

TRICARE Management Activity
Deputy Director, TRICARE Management Activity

Armed Forces Retirement Home
Armed Forces Retirement Home, Washington, DC

Chairman, Local Board of Trustees Armed Forces Retirement Home Washington DC
C/o Commanding General-North Atlantic Medical Command; Walter Reed Army Medical
Center




                                             93 

                        Inspection of the Armed Forces Retirement Home
                            February 25, 2010 Report No. IE-2010-002




This page intentionally left blank.
                                                                      General Information
                                                                      Forward questions or comments concerning this report and other activities conducted by the
                                                                      Inspections & Evaluations Directorate to:
               DEPARTMENT OF DEFENSE
                                                                                                                           Inspections & Evaluations Directorate
	
	
                                                                                                             Office of the Deputy Inspector General for Policy and Oversight
	
	
              OFFICE OF INSPECTOR GENERAL
                                                                                                                   Department of Defense Office of Inspector General
	
	
                                                                                                                                   400 Army Navy Drive
	
	
                                                                                                                                Arlington, VA 22202-4704
	
	
                                                                                                                              E-mail: crystalfocus@dodig.mil
	
	

                                                                      An overview of the Department of Defense Office of Inspector General mission and organization
                     MISSION STATEMENT                                structure is available at http://www.dodig.mil




      Promote integrity, accountability, and improvement of
Department of Defense personnel, programs and operations to support
       the Department's mission and serve the public interest.




                                                                      D E PA R T M E N T O F D E F E N S E
                                                                                                                                 To report fraud, waste, mismanagement, and abuse of authority.


                                                                      hot line                                                   Send written complaints to: Defense Hotline, The Pentagon, Washington, DC 20301-1900
                                                                                                                                 Phone: 800.424.9098         e-mail: hotline@dodig.mil       www.dodig.mil/hotline
